<html>
<title> - EMPOWERING NATIVE YOUTH TO RECLAIM THEIR FUTURE</title>
<body><pre>[Senate Hearing 112-616]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-616

 
            EMPOWERING NATIVE YOUTH TO RECLAIM THEIR FUTURE

=======================================================================

                             FIELD HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 9, 2011

                               __________

         Printed for the use of the Committee on Indian Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
76-838                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5235223d12312721263a373e227c313d3f7c">[email&#160;protected]</a>  

                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. AKAKA, Hawaii, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN HOEVEN, North Dakota
MARIA CANTWELL, Washington           MIKE CRAPO, Idaho
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Loretta A. Tuell, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 9, 2011...................................     1
Statement of Senator Tester......................................     7

                               Witnesses

Gourneau, Roxanne, Tribal Judge, Fort Peck's Tribal Family Court.     5
Halliday, Deborah, MPA, Policy Advisor, Community Learning 
  Partnerships, Montana Office of Public Instruction.............     9
    Prepared statement...........................................    11
Jackson, Fanci, Member, Fort Peck Youth Council..................    17
Manning, Richard, Research Associate, National Native Children's 
  Trauma Center, University of Montana...........................    12
    Prepared statement...........................................    14
Mckeon, Richard T., Ph.D., Lead Public Health Advisor, Suicide 
  Prevention Team, Substance Abuse and Mental Health Services 
  Administration, U.S. Department of Health and Human Services...    33
    Prepared statement...........................................    35
Parisian, Edward, Director, Rocky Mountain Regional Office, 
  Bureau of Indian Affairs, United States Department of Interior.    29
    Prepared statement...........................................    31
Stafne, Hon. A.T. ``Rusty'', Chairman, Assiniboine and Sioux 
  Tribes of the Fort Peck Indian Reservation.....................     1
    Prepared statement...........................................     2
Weahkee, Rose, Ph.D., Director, Division of Behavioral Health, 
  Indian Health Service..........................................    22
    Prepared statement...........................................    24
White Tail Feather, Walter, Director. Office of Economic 
  Development, Fort Peck Assiniboine and Sioux Tribes; on behalf 
  of Roxann Smith, Vice Chairman, Fort Peck Tribes...............     3

                                Appendix

Belcourt-Dittloff, Annie, Ph.D., Missoula, Montana, prepared 
  statement......................................................    43
Zimmerman, Marilyn Bruguier, Director, National Native Children's 
  Trauma Center and Richard van den Pol, Director, Institute for 
  Educational Research and Service, University of Montana........    48


            EMPOWERING NATIVE YOUTH TO RECLAIM THEIR FUTURE

                              ----------                              


                        TUESDAY, AUGUST 9, 2011


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                        Poplar, MT.
    The Committee met, pursuant to notice, at 1:30 p.m. at 
Poplar High School, 400 4th Avenue West, Poplar, Montana, 
Honorable Jon Tester, Acting Chairman of the Committee, 
presiding.

    *Due to audio technical difficulties; the following hearing 
transcript has [indiscernible] printed in place of a lot of 
missing text*

    The Committee apologizes for the inconvenience.

       OPENING STATEMENT OF HON. A.T. ``RUSTY'' STAFNE, 
CHAIRMAN, ASSINIBOINE AND SIOUX TRIBES OF THE FORT PECK INDIAN 
                          RESERVATION

    Mr. Stafne. Good afternoon, Senator Tester.
    Senator Tester. Mr. Chairman.
    Mr. Stafne. My name is Rusty Stafne, and I am Chairman of 
the Assiniboine Sioux Tribe, Fort Peck Reservation.
    On behalf of the tribal council and the tribal membership, 
we welcome you to the Fort Peck Indian Reservation.
    We also thank you for holding this hearing to address the 
epidemic levels of youth suicide on our reservation and the 
ways our community can empower our children to rise above this 
crisis and reclaim their future.
    Senator, it is my honor to stand before you today. Please 
understand that I do so with a heavy heart. It is difficult for 
me to know where to begin or how to begin. You are familiar 
with the statistics. Yet, as you are aware, these numbers do 
not paint the full picture. We are under attack and our future 
is the target.
    Like any nation facing such great threat to our most 
vulnerable citizens, we have acted to the best of our ability 
to combat this epidemic. But how can you fight what you cannot 
begin to understand?
    Just over a year ago, the United States Public Health 
Service deployed six teams of behavioral health officers to 
help us better understand and join in the battle our youth are 
fighting. After the 12-week effort, final recommendations were 
made to the tribal executive board in October in Montana. Since 
then, our communities have worked tirelessly to implement these 
recommendations, and keep those considering ending their lives 
from taking that final step. We have brought on skilled staff 
and involved multiple generations, collaborated with local 
school districts and heightened community awareness. We have 
tackled upstream issues such as bullying and boredom, while 
training parents and peers to recognize the signs and increase 
the available activities for youth across the reservation.
    We have also developed response command and protocol for 
streamlining and minimizing response time in the event of 
another tragic attempt. Of course, in our communities, 
resources are always an issue. I would like to thank you, 
Senator, for your support in our application for a $1.4 million 
grant awarded just two weeks ago to continue our efforts with 
the University of Montana and National Native Children's Trauma 
Center. It joins other grant funding we have relied upon to 
support these efforts.
    We are doing all that we can. Yet at an agency level, a 
lack of communication, staffing shortages and budget shortfalls 
continue to hinder our efforts. Senator, we thank you for all 
your hard work and the support you have provided us in our time 
of need. But the threat of more lost young lives looms. Today I 
come before you as Chairman of the Assiniboine Sioux Tribes 
asking that the testimony shared here grows into productive 
collaboration and increased interagency communication.
    There is much work yet to be done. Our people deserve 
healthy bodies and healthy minds. Our children deserve a 
future. Thank you.
    [The prepared statement of Mr. Stafne follows:]

Prepared Statement of Hon. A.T. ``Rusty'' Stafne, Chairman, Assiniboine 
          and Sioux Tribes of the Fort Peck Indian Reservation

    Good afternoon, Senator Tester. My name is Rusty Stafne, and I am 
the Chairman of the Fort Peck Tribes. On behalf of my Tribal Council 
and our Tribal members, I would like to welcome you to the Fort Peck 
Indian Reservation and thank you for holding this hearing to address 
the epidemic levels of youth suicide on our reservation and the ways 
our community can empower our children to rise above this crisis and 
reclaim their future.
    I would first like to recognize those who spoke before me. Vice 
Chairwoman Roxann Smith and Judge Roxanne Gourneau, thank you for 
selflessly sharing the stories of your sons. Even though unimaginable 
tragedy has touched your lives, you stand strong for your people. 
Nothing can bring your boys back, but your bravery reminds us that this 
is not a hopeless place. Thank you.
    Senator, it is my honor to testify before you, but please 
understand that I do so with a heavy heart. It's difficult for me to 
know where to begin. You're familiar with the statistics, you cited 
them in your remarks. Yet even these numbers don't paint the full 
picture: we are under attack, and our future is the target. Like any 
nation facing such a grave threat to our most vulnerable citizens, we 
have acted to the best of our ability to combat this epidemic; but how 
can you fight what you cannot begin to understand?
    Just over a year ago, the United States Public Health Service 
deployed six teams of behavioral health officers to help us better 
understand and join the battle our youth are fighting. After the 12-
week effort, final recommendations were made to the Tribal Executive 
Board in October, 2010. Since then, our communities have worked 
tirelessly to implement these recommendations, to keep those 
considering ending their lives from taking that final step. We've 
brought on skilled staff, involved multiple generations, collaborated 
with local school districts, and heightened community awareness. We've 
tackled upstream issues such as bullying and boredom by training 
parents and peers to recognize the signs, and increasing available 
activities for youth across the reservation. And we've developed a 
response plan and protocol to streamline agencies and minimize response 
time in the event of another tragic attempt.
    Of course, in our communities, resources are always an issue. I 
would like to thank you for your support in our application for a $1.4 
million grant awarded just two weeks ago to continue our efforts with 
the University of Montana and National Native Children's Trauma Center. 
It joins other gsrant funding we've relied upon to support these 
efforts--we are doing all that we can.
    Yet at the agency level, a lack of communication, staffing 
shortages, and budget shortfalls continue to hinder our efforts. The 
IHS Behavioral Health Department here has no director, and its 
facilities are lacking. Repeated efforts to contact the Bureau of 
Indian Affairs and Indian Health Service for technical and financial 
assistance to build and implement ``safe houses'' across the 
reservation seem to have fallen on deaf ears, as neither agency has 
responded. Indian Health Service constant shortfalls impact these 
efforts as well. We cannot stress strongly enough the need for fully 
funded health services: to afford preventative and reliable behavior 
health services, treat substance abuse issues, and prevent early and 
unwanted pregnancies.
    Senator, we thank you for all your hard work and the support you 
have provided us in our time of need, but the threat of more lost young 
lives looms. Today I come before you as a leader of my people asking 
that the testimony shared here grows into productive collaboration and 
increased interagency communication. There is much work yet to be done. 
Our people deserve healthy bodies and healthy minds. Our children 
deserve a future. Thank you.

    Senator Tester. Thanks, Rusty. Thank you.
    [Applause.]
    Senator Tester. Thank you very much. I appreciate everybody 
being here this afternoon on a glorious day in northeastern 
Montana.
    Before I start, I would like to get comments from Walter 
White Tail Feather.

  STATEMENT OF WALTER WHITE TAIL FEATHER DIRECTOR. OFFICE OF 
                ECONOMIC DEVELOPMENT, FORT PECK 
 ASSINIBOINE AND SIOUX TRIBES; ON BEHALF OF HON. ROXANN SMITH, 
                         VICE CHAIRMAN

    Mr. White Tail Feather. Thank you. I bring the testimony of 
the Vice Chairman. So these are from her, Roxann Smith, Vice 
Chairman, Fort Peck Tribes.
    One of the Fort Peck's needs to address [indiscernible]. We 
have [indiscernible] suicides among primarily our young people. 
My connection here is that I have lost a son and a cousin and 
some precious [indiscernible] for our communities. This very 
remote location that we live in is our home. Our families are 
here and they are [indiscernible] here. For the young people, 
there are not a lot of healthy activities for [indiscernible]. 
What we need is more opportunities for our youth to learn and 
prosper so that they can become productive members of our 
reservation.
    The schools have done the best they can with what resources 
they have. However, some of our reservation schools have 
operating budget deficits. To alleviate this situation, they 
have been forced to downsize their counselors so that they can 
maintain their budget constraints.
    Built into our tribe a youth program, the solution is to 
put funding priorities into those existing programs, not to 
reinvent the wheel. Everybody needs to participate.
    At the Federal level, make existing grant funding 
opportunities more flexible to include youth activities as 
allowable costs. Our communities are impoverished, and in a lot 
of cases have little to look forward to. The outcome I would 
like to see is increased resources and collaboration within 
programs to provide outreach programs and collaboration with 
OPI, health providers and other entities. Perhaps a solution is 
to have a contract person that will be available to provide 
mental health and substance abuse counseling to local 
[indiscernible].
    Health care providers must be available and visible in the 
community to earn the respect of our young people. Our 
community is small and everybody knows everyone. So it is 
imperative that our caretakers are clean and sober and have 
integrity in each of our communities. A possible solution would 
be to have a shelter workshop in a location where people may be 
productive members of our reservation. At this location, 
cultural teachings, counseling and recreation could take place 
with an emphasis on building esteem, hands-on crafts, 
horsemanship, hunting, et cetera. Families maybe included in 
the activities.
    Organized recreation is another topic that we have 
[indiscernible] and since it is a healthy alternative to 
drinking and partying, it too can be incorporated throughout 
the [indiscernible]. We have a [indiscernible] oil and 
[indiscernible] opportunity knocking on our doors. And we need 
assistance on how to deal with the rush of people as well as 
opportunities coming our way. How will we protect our future 
without this [indiscernible] foster our communities 
[indiscernible] grow into the existing work force as well as 
future [indiscernible] these children that will lead them and 
[indiscernible] and [indiscernible] into the next generation.
    So those are the words of the Vice Chair. And James Miller 
asked me to talk about my experience. I have never talked about 
it [indiscernible] for me. But I left home when I was 13 years 
old [indiscernible]. My parents wanted to get me away from the 
drugs and alcohol and that is where they sent me. Little did 
they know that that is where I encountered [indiscernible] high 
school [indiscernible].
    I landed a job in Washington, D.C. And subsequently just 
lived that life there. There came a very serious point in my 
life when I, there was nothing to look forward to. Absolutely 
nothing. Even living in the city, [indiscernible] my friends, 
the job that I had. And there was a lot of [indiscernible] that 
was going on at the time. When I was a child, even here and in 
high school, I always wanted to find that party, the bright 
lights and the city.
    And that is what goes on here, it happens here too. It got 
to the point where I didn't see anything [indiscernible] and I 
realized that the apartment that I was living in, I had a gas 
stove. And it got to the point where I said, I can just go to 
sleep. I don't ever have to wake up again, I don't ever have to 
deal with any of this. Nothing. And not being around my parents 
[indiscernible] my family. And the only reason I didn't do it 
was because my roommate at the time, he was in Boston. And it 
was his [indiscernible]. And I didn't want him to come back and 
find a body. And it [indiscernible] after that I turned myself 
in to rehab and it didn't work. I had to go back again 
[indiscernible].
    So those memories are there. And there are some young 
people in the audience today, and you can survive anything, 
absolutely anything [indiscernible] if you want to. And you 
don't have to live that life.
    And there is sometimes I got some calls from people who 
have, who know this about me and have asked my advice. I know 
what that feels like, when you are right at that point. There 
is some people who don't, they don't understand 
[indiscernible].
    [indiscernible] allowing the chairman and all those people 
[indiscernible] eyes and everywhere else, there is hope. There 
is. It does get better. It absolutely does. Thank you.
    [Applause.]
    Senator Tester. Thank you, Walter.
    Roxanne Gourneau, Tribal Judge, could I get her to make a 
few comments?

STATEMENT OF ROXANNE GOURNEAU, TRIBAL JUDGE, FORT PECK'S TRIBAL 
                          FAMILY COURT

    Ms. Gourneau. I know that I have two nieces in the 
audience, where are you? Will you come up for a minute, please.
    I know that those of you who know me that I will 
[indiscernible] and that is two [indiscernible].
    Senator, I am in mourning right now and I want you to know 
that, so I will weep. My son couldn't come today because I 
buried my son November 23rd, 2010, my only son. This is who he 
is. This is his family. My son was loved by many of you. My son 
took his life. But I want you, I am not going to stand here and 
tell you that things are great, and I want you to understand 
that our young, and I want you to know something, my son did 
not plan his death. His death was abrupt.
    There are so many people across this beautiful reservation, 
[indiscernible] my son could have called anybody, anybody, and 
they would have been there. I am talking about friends and I am 
talking about children that would have saved his life. But 
Senator, I am telling you, what took my son's life was the 
public school systems. My son was [indiscernible] upon. In 
three hours, my son, who stood 6 foot 4 and 260 pounds and he 
was invincible, he was my boy, he was kind, he was generous, he 
was truthful and he was honest. He would give the shirt off his 
back.
    And I want you to know, Senator, that I am here today to 
tell you anything you ask me. But we need regulations in the 
school systems. Let's don't pretend any longer for three 
decades that suicide is the second leading cause of death in 
the State of Montana and on our reservations, let's don't 
pretend any more. Let's don't pretend that we have titles that 
we have to speak in a certain way. Let's don't pretend any 
longer that our Native American children and [indiscernible] 
children that [indiscernible] and special ed. I don't want to 
pretend.
    My son had a learning disability. They accused him of 
having chewing tobacco. My son was a contender for a state 
championship for wrestling. My son went to wrestling two years. 
Contrary to what people say, and my heart is beating just as 
hard as that drum, but contrary to what people say in that 
report, it was nay, I am not an alcoholic, Senator. I don't 
abuse drugs. I have been blessed by my tribe and by my people 
to make an income that is 10 percent of the nation.
    And I can tell you, and I can't speak for other parents who 
have lost their children, but I can speak for me and I can 
speak for my son, but I can tell you, Senator, they themselves 
love their children. They were middle class people. They 
weren't foster children. But I am telling you, Senator, that 
these [indiscernible] we didn't need a $300 million report. 
What we needed was proper investigation for audit 
[indiscernible]. That is what we needed. We needed to head 
these problems off before they started.
    I want to make a difference in the school systems. I have 
worked 30 years, Senator, and I have enjoyed opportunity and I 
have benefitted in so many ways as an individual. And I am 
still very young in wisdom. But I have worked in the executive 
branch, I have worked in the judicial and the legislative. I 
have held the title of vice chairman, first vice chairman. I 
have been on the tribal council. I am presently a judge. I have 
worked in so many of the social programs and I graduated in 
this school.
    So don't tell me, people, and don't let anybody say how 
poor this reservation is. This was a beautiful playground for 
my son. And he loved being Native American and he absolutely 
loved all people. But I am telling you, Senator, that days 
without recognition in the school what they did to my son and 
not contacting me was a direct result of my son taking his 
life. Those policies weren't placed by great wisdom. And I know 
that people have rumors out there that think differently. But 
that was my only son. Who in this reservation didn't know who I 
was? I made sure that that school knew my contact information. 
Why was my son targeted?
    But it wasn't just my son. As many of you that sit her, you 
always said you have got to accept that is the way it is. I 
won't accept the death of my son. I won't. I will not celebrate 
him until I have closure. But it isn't for me, because he's 
gone now. It is for you and your children and your 
grandchildren. No other mother should feel how I feel. No other 
family, this family right here cries every day.
    There is no such thing as substitution for love. As many of 
you [indiscernible] titles, you need to take the titles off and 
you need to do what's right. Be that leader. That is what we 
are asking you, Senator Tester. That is what I am asking you. I 
am asking you to be a leader for the State of Montana. And you 
have to ask yourself, what do we have in common. Your children, 
Senator. There is a severe expulsion and suspension rate, 
dropout rate, high suicide rate. These records have been on 
notice.
    This isn't new information, folks, and I am telling you 
that. It is been here. Do you really think that anybody really 
cares that our children are taking their lives? They won't care 
until you start caring, until we start caring. Don't tell me 
about another policy. I don't want to hear about another 
policy. What I want, Senator, is, I work in a field, I know 
about this [indiscernible] act. We have been recently trained 
on the Adam Walsh Act. And you know what Adam Walsh is, you all 
do.
    Many laws have been named because of an isolated situation 
for one person. Well, let me tell you, our tribe is being 
affected. And some of you know what manifest destiny means. 
Today we can't pick out the next 10 years' leaders because you 
can't be getting through the schools. Because their spirit is 
broken. Schools are where dreams are made. That is where they 
are at. How did it turn to be where it got today? Because that 
is what it is. They are destroying them and they are breaking 
them. Nobody cares about the dropout rate. The children that 
need education.
    Tribalizing education was done by this tribe, but nobody 
saw fit to pass it. We got so many dignitaries in this room 
that all you have to do is just do it. Senator Tester, what I 
am asking you, and I want you to understand my son's story and 
I want you to understand that morning he got up and he told me, 
he said, I love you, mom. I won't apologize for crying.
    But I am not the only mother who walks with arms that hurt. 
And I am not the only family member who walks around and says, 
I need to know. But I know what you can do, Senator. You can 
remove tenure from the State of Montana. You can have 
accountability in the schools, access to equal education.
    My son was a citizen of the United States. He deserved to 
be protected under the law. My son was a citizen of the State 
of Montana that should have enjoyed equal access and benefitted 
from education. My son is an enrolled member of a tribe, Turtle 
Mountain. He should have enjoyed the trust responsibility that 
guarantees education and protection. My son had a learning 
disability.
    With all of that, my son should have never died. But he 
did. And so did many other children here. And it won't stop. It 
won't stop until somebody tells you the truth. And the truth 
is, you need accountability in the school systems. The feuds 
and the friction that is going on there, it is an atrocity. And 
everyone is going to tell you, and I know some of these fine 
folks out here are going to tell you that we need more money. 
And I am going to tell you I don't need any money. You need to 
roll up your sleeves and you need to be counted on. Because we 
have been paying for a long time, and it is time that you start 
stepping outside yourself and building an extension of our 
home. I am not going anywhere, I am going to die here. So 
Senator, these are the things that I ask of you. And I don't 
apologize for wearing my emotion on my sleeve. I haven't made 
any public speeches in a long time. But I am coming, and I want 
you to know, Senator, that I have filed a civil lawsuit against 
the State of Montana, the school board and the superintendent, 
just to begin with, for the gross, indifferent negligence that 
they demonstrated toward my son. And I can substantiate and 
prove every bit of it.
    So thank you, Senator.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Roxanne. And I want to thank 
everybody who's testified to this point. This is a field 
hearing of the U.S. Senate Committee on Indian Affairs. We are 
here today, and pleased to be here with the members of the 
Assiniboine Sioux Tribe of the Fort Peck Reservation and our 
distinguished panelists.
    The title of this hearing is Empowering Native Youth to 
Reclaim Their Future. We are here to acknowledge the 
devastating problem of youth suicide that occurs in Indian 
Country. And more importantly, as Roxanne pointed out, to find 
solutions to solving it.
    Over the past year we have heard a lot of stories in the 
news about fights in Congress over the economy and celebrities 
who get themselves into trouble. But America's 24-hour news 
anchors forgot one painful story here in Montana. And we are 
here to acknowledge that the rate of suicide for American 
Indian youth is far higher than any other ethnic or racial 
group in the United States. On some reservations, including 
this one and others in Montana, the incidence of suicide has 
been 10 times, 10 times the national average. Right here, the 
folks in this room know this much better than I, right here 
over the last year six children took their own lives. One of 
those children was only 10 years old. And there is more, at 
least 20 other members of the Fort Peck community attempted 
suicide. That is totally unacceptable in any community. Because 
these kids, as has been pointed out earlier, are our future.
    Leaders in Montana, specifically at Fort Peck, have tried 
to do their very best to respond aggressively. The Chairman and 
his administration I think have done good work under difficult 
conditions. And so has Gordon Belcourt and Donnie Wetzel of the 
Montana-Wyoming Tribal Leaders Council. Their Planting Seeds of 
Hope project us helping every Montana tribe to build resilience 
in Native American youth. They are empowering tribes to prevent 
suicides.
    This is also a good opportunity to remember a friend that 
left us all too soon. Darryl Red Eagle was a friend of mine and 
many of you folks in this room. Darryl was a council member for 
the Fort Peck Tribes from 2005 until he died in June. He was 
chair of the Health and Human Services Committee. In that role, 
Darryl was a tireless advocate for improving the health 
conditions of his people. I had the opportunity to visit with 
him many, many times. Those of you who knew him, you can 
imagine he was very vocal about the need to prevent native 
youth suicide.
    Working together, we have taken some steps. Permanently 
reauthorizing the Indian Health Care Improvement Act means that 
better health care, physical and mental, is on the way for 
Indian communities. This bill opens up grants for tribes and 
organizations for suicide prevention efforts.
    In fact, earlier this summer, as Chairman Stafne pointed 
out, Senator Boxer and I announced that the U.S. Center for 
Mental Health Services had ordered a $1.4 million grant to 
address youth suicide and to promote activities that emphasize 
resilience and leadership on this reservation. That is a good 
start. But we need to do more.
    In geographically isolated parts of rural America, 
including right here in Eastern Montana, resources aren't 
readily available. Recruiting health care professionals to 
serve frontier communities is very challenging. And in Indian 
Country, these challenges are compounded by poverty, inadequate 
infrastructure and sadly, a sense of hopelessness that should 
never afflict a 10 year old child, or any child for that 
matter. Hopelessness is not what this Country is about. We live 
in the greatest Nation in the world, where we work hard to make 
the future better for the future generations and have better 
opportunities than we have had. All America's kids and their 
families should have somewhere to turn, especially in places 
resources are slim and hope can be scarce.
    Although resources are slim in many parts of Indian 
Country, you have something many others do not have, and that 
is the greatest strength in Indian Country, family, kinship. 
More than anything else, Indian families are a bond that not 
only help you survive, but thrive. As community leaders and 
family members, we all have to do our part. Leaders make policy 
decisions and community members make role models. Role models 
include mothers and fathers, extended family and friends, 
teachers, business leaders and cultural figures. The Fort Peck 
community has a lot of good role models, a couple that I will 
just bring up. One of them is here today, a kid like April 
Youpee Roll. April grew up here, went to Harvard and interned 
in my Washington, D.C. office. April, congratulations on being 
a great role model.
    Richard Dionne, a young man who grew up here, he resisted 
peer pressure and chose never to take a drink of alcohol or try 
a drug. After playing basketball in the Continental Basketball 
Association, he is now a guidance counselor for Native youth. 
And there are many, many more. And I wish we had time to talk 
about them all, but we don't.
    But the point is that as a community, we have to give hope 
to kids. We have to give them the belief that they can become 
anything they want. That if they resist the peer pressure and 
the dangerous distractions, as was pointed out earlier here 
today, that they live in a country where their dreams can come 
true. As community members, we need to fight to make sure all 
our kids, no matter where they live, understand that 
hopelessness and despair doesn't belong in any community.
    Another important step to addressing this tragedy is to 
make sure folks understand the story from Fort Peck 
Reservation, right here, is real. The more people understand 
the challenges facing many of our rural communities, many of 
our frontier communities, the better able we are to make sure 
that all of our young folks are able to live up to their 
fullest potential.
    I am happy to welcome our distinguished panel to share 
their thoughts on this crisis. And we are going to do things a 
little bit different today. Usually at these hearings we hear 
from Administration witnesses first. That is not going to be 
the case today. We are going to hear from local witnesses 
first, witnesses from Montana, and then the agency officials 
will be on the second panel.
    As always, we have limited time. Your complete statements 
will be entered into the record of the hearing. I would ask you 
to be concise and shorten your testimony to be as close to five 
minutes as you can, although I won't be too harsh on you if you 
run over a bit.
    First we are going to hear from Deb Halliday. Ms. Halliday 
is Policy Advisor on Community Learning Partnerships in 
Montana's Office of Public Instruction. The committee invited 
OP to testify because schools are absolutely critical, as has 
already been pointed out, to solving this problem.
    So if you want to start out, Deb, and we will go to Mr. 
Manning in a bit.

 STATEMENT OF DEBORAH HALLIDAY, MPA, POLICY ADVISOR, COMMUNITY 
  LEARNING PARTNERSHIPS, MONTANA OFFICE OF PUBLIC INSTRUCTION

    Ms. Halliday. Good afternoon. Thank you for inviting the 
Montana Office of Public Instruction to participate in this 
hearing. I look forward to sharing our work and our 
observations related to the vitally important task of 
supporting and strengthening our American Indian youth.
    Thank you, Chairman Stafne, for hosting the gathering. I 
too have in my mind today Councilman Darryl Red Eagle, who so 
deeply believed in the beauty and the promise of children and 
who worked so wisely to change how we do our work to better 
support American Indian youth.
    I am here representing our State Superintendent, Denise 
Juneau, who is unable to attend today. I am also here to speak 
of the ground-breaking work we are doing in partnership with 
tribal governments, school districts, community members and 
families who truly improve the quality of education in our 
State's most struggling schools.
    Under State Superintendent Denise Juneau's leadership, the 
Office of Public Instruction has launched an initiative called 
Montana Schools of Promise, which is working to significantly 
improve the quality of education in Montana's most struggling 
schools. Schools where a mere 15 to 25 percent of high school 
tenth graders showed proficiency in reading and dropout rates 
are double those of the general population.
    In Montana, the most struggling schools are all located on 
our State's Indian reservations. Schools of Promise seeks to 
turn these schools around, providing intensive supports to all 
components of the school system and engaging community, family 
and tribal government in the effort.
    Last year, the Schools of Promise received a substantial 
boost through a three-year U.S. Department of Education school 
improvement grant and we are now working intensively with four 
school systems, here in Fort Peck, on the Crow Reservation and 
the Northern Cheyenne Reservation. From the get-go, based on 
research, we knew that our efforts must be comprehensive and 
must include support for the mental health and well-being of 
students. It is common knowledge that students learn better 
when their mental health needs are met. This is particularly 
important in communities that are grappling with the long-term 
damaging effects of trauma, disruptive family environments and 
poverty.
    Recent school improvement research clearly connect the 
students' well-being and their readiness to learn as central to 
the work of making schools better. Every child needs a trusting 
adult to turn to who will provoke and inspire that child to do 
their best. And that unmet health and mental health needs 
impair a child's learning process. From a brain physiological 
perspective, we now know that the brain itself cannot receive 
or retain new information if it is in a post-traumatic state: 
for example, when a student is re-experiencing or has not yet 
recovered from the traumatic event in their lives.
    The Office of Public Instruction is addressing these 
challenges in several ways. We have partnered with the 
University of Montana National Native Children's Trauma Center, 
which you will hear about in a few moments, to support the 
adults working in schools so that they can better understand 
the critical role they play in a child's well-being and give 
them specific tools to do that better. We have brought 
mentoring and student advisory time into the school day. We are 
working with schools to create a safer school environment.
    We are also the recipient of a Montana Mental Health Trust 
grant. Through this two-year, $600,000 grant, the OPI is 
partnering with tribal governments on the Fort Peck, Crow and 
Northern Cheyenne and with Indian Health Services, the Bureau 
of Indian Affairs, the State Department of Health and Human 
Services and public school districts on all three reservations 
to develop community-based school mental health wraparound 
services.
    There is a lot of great work going on, and it is hard work. 
Yet we are seeing early results that are promising. After one 
year of our Schools of Promise work, all four school systems 
showed marked improvement in student test scores, such by as 
much as 15 points, and dropout rates are improving.
    I will conclude my comments with a few observations, which 
I hope will help you in your discussions on how to best support 
the work being done to strengthen the American Indian youth. 
Number one, build on existing core community strengths. In 
every community, there is a small group of people working 
miracle every day. Many of those who work here at Fort Peck are 
here in this room. Find these folks, understand what they care 
about, how the community works when children return home from 
school, and office lights are turned off, the natural rhythms 
of life take over.
    Number two, listen to what works. Montana is a rural, 
frontier State. We struggle with Federal policy and programs 
that are built with skyscrapers and city economies in mind. 
Here in Montana, we develop effective strategies that work in a 
vast, rural, poor State. Learn from that and take our lessons 
into the national debate.
    And finally, we can't do it alone. The Office of Public 
Instruction is partnering with local communities, tribal 
governments, State and Federal allies. It is the only way we 
can see that lasting change will occur. The vast majority of 
funds we rely on to do this work comes from Federal funds. Keep 
them coming. Our State literally can't afford to fund the 
intensive work that needs to be done, and yet our communities 
and our Nation can't afford us to not do that work every day as 
best we can.
    Thank you.
    [The prepared statement of Ms. Halliday follows:]

Prepared Statement of Deborah Halliday, MPA, Policy Advisor, Community 
      Learning Partnerships, Montana Office of Public Instruction

    Good afternoon. Thank you for inviting the Montana Office of Public 
Instruction to participate in this hearing. I look forward to sharing 
our work and observations as they relate to the vitally important task 
of supporting and strengthening American Indian youth.
    Thank you to Chairman Stafne for hosting this gathering. I have in 
my mind today Councilman Darryl Red Eagle, who so deeply believed in 
the beauty and promise of children, and who worked so wisely to change 
how we do our work to better support American Indian youth.
    I am here representing State Superintendent Denise Juneau, who is 
unable to attend today. I am also here to speak of the ground-breaking 
work we are doing, in partnership with Tribal Governments, school 
districts, community members and families to truly improve the quality 
of education in our state's most struggling schools.
    Under State Superintendent Denise Juneau's leadership, the Office 
of Public Instruction has launched an initiative called Montana Schools 
of Promise, which is working to significantly improve the quality of 
education in Montana's most struggling schools. Schools where a mere 
15-25 percent of high school tenth graders are proficient in math and 
reading, and dropout rates are double those of the general population.
    In Montana, the most struggling schools are all located on our 
state's Indian Reservations. Schools of Promise seeks to turn these 
schools around:

        1.  Providing intensive supports to all components of the 
        school system, and engaging community, families and tribal 
        government in the effort.

        2.  Listen to what works. Montana is a rural, frontier state. 
        We struggle with federal policies and programs that are built 
        with sky scrapers and city economies in mind. Here in Montana, 
        we develop effective strategies that work in a vast, rural, 
        poor state. Learn from that, and take our lessons into the 
        national debate. And finally,

        3.  We can't do it alone. The Office of Public Instruction is 
        partnering with local communities, tribal governments, state 
        and federal allies. It's t he only way we can see that lasting 
        change will occur. Yet the vast majority of funds we rely on to 
        do this work come from federal funds. Keep them coming: our 
        state literally can't afford to fund the intensive work that 
        needs to be done, and yet our communities and our nation can't 
        afford for us not to do that work, every day, as best we can.

    Thank you. I am happy to answer any questions.

    Senator Tester. Thank you, Deb. Thank you very much for 
your testimony. We will have some questions after we get done 
with the panel for each of the panel members.
    Next we get to hear from Dick Manning. Dick is a Research 
Associate at the National Native Children's Trauma Center at 
the University of Montana. Dick and the folks in his office 
have developed methods for tribal communities to address these 
strategies. He will share some of those recommendations with 
us.
    On a side note, I will just tell you this. Dick is a 
special friend of mine. He's one of those people that, from my 
perspective, looks at life from a different perspective and is 
able to find solutions that people like me don't often see 
readily. So Dick, I want to thank you for being here today, and 
I look forward to your testimony. Once again, try to keep it as 
close to five minutes as you can.

  STATEMENT OF RICHARD MANNING, RESEARCH ASSOCIATE, NATIONAL 
               NATIVE CHILDREN'S TRAUMA CENTER, 
                     UNIVERSITY OF MONTANA

    Mr. Manning. Thank you, Senator, and thanks to Chairman 
Stafne.
    I am here representing the National Native Children's 
Trauma Center, whose director is Marilyn Zimmerman. She would 
be here today, but she is in Washington, D.C., presenting 
[indiscernible]. In other words, she got the short straw and 
had to go to D.C.
    I would like to begin by saying first of all, we have been 
engaged in this community for seven years. We are very grateful 
to the tribal council. We would like to express that gratitude 
to the Chairman's staff and the tribal council [indiscernible] 
in allowing us to learn from this community over the years 
[indiscernible] learning process. That engagement has greatly 
enriched our work with the work that we [indiscernible].
    I would also like to thank Senator Tester, of course. I am 
very glad that he remarked today about that $1.4 million grant. 
I can tell you, I personally had a hand in writing that grant. 
I saw it go through the bureaucracy and it clearly wouldn't be 
here without the support we continually get from Senator 
Tester's office and his staff in negotiating this for us. It is 
very important work that goes on behind the scenes and is not 
often [indiscernible] it is a big deal.
    Deb hit on some of the points I would like to hit on, and I 
would like to stress two points here today. The reports in the 
news, concrete examples that have grown out of our 
understanding, and by our work, I mean this community as a 
whole, that has been building as we struggle with these issues. 
Believe me, I use the word issue in plural. It is tempting of 
course to focus on the issue of suicide, headline-grabbing as 
it is. It is urgent that we do focus on it.
    But we need to keep a few things in mind [indiscernible] 
this problem of suicide tends to be part of a lot of problems, 
a whole threat that is all tangled up, problems on problems, 
drug and alcohol abuse, assault and violence, poor academic 
performance, dropouts, teen pregnancies. These problems kind of 
run together. We see them together and they are not speaking to 
individual cases [indiscernible] teen suicide. When we see them 
together we know we have a much larger problem than suicide, 
and we have to think about that.
    We also have to think about causes. And again, there is no 
single cause. Causes themselves are very complex as well, and 
this is borne out by the research nationally. This is what we 
see on a community level when we work day to day. And those 
causes are not limited to but include things like child abuse, 
[indiscernible], absent parents, parents simply challenged by 
the difficulties [indiscernible] and in cases [indiscernible] 
historic [indiscernible].
    This complexity of cause, in effect, dictates something 
very important and gives us our marching orders. Our marching 
orders are this: that no single agency, no single institution, 
no single level fo government has a comprehensive solution. 
None of us can do it alone, we are all in this together. This 
virtually dictates that we have to learn to cooperate. Believe 
me, that is hard work. That is the work that has been going on.
    This is not some platitude that we are just bearing lip 
service to. We have to learn to actively tear down the barriers 
between institutions so we can work together to solve this 
problem. We are all in this together.
    Now, having set up those two principles, I want to report 
on good news, things that are happening, and we will get back 
to that $1.4 million grant, and the way it worked. The way it 
worked, it did not begin with a grant-writing class. It began 
with a tribal consult declaring a state of emergency and then 
leading to the deployment of the Indian Health Service. The 
Indian Health Service deployed people to this community who did 
very hard State work. They researched and asked questions to 
find out what was going on.
    Now, in lesser communities, the report that they generated 
would end up a shelf collecting dust as reports often do. That 
was not the case. We had already begun conversations with James 
Belcourt and under his leadership and tribal health people we 
understood that we needed that report as a way forward. So we 
took it as an information base. That information base, what we 
learned from that community or that Federal report told us as a 
university to do allowed us to write a grant that was far more 
compelling than we would have been able to do alone.
    So it is that leadership, IHS, tribal health, tribal 
council and the schools, people working together, sharing 
information that allowed us to write a very strong grant and 
then the leadership of Senator Tester's office to make it 
happen. Those things [indiscernible] together.
    That is probably [indiscernible] what is to us something we 
have learned. And this is a small thing [indiscernible]. During 
the IHS deployment, the people doing that work did a very smart 
thing and something we have a lot here today. They took kids 
aside and asked them what they thought we should do. They 
talked to children, they said, what do you need. Now, that 
sounds [indiscernible] be surprised at how often it doesn't 
happen. It happened in this case.
    One of the things kids told us as a group, a common answer 
was, we had like more adult contact, one on one contact. So 
when we began our work in Poplar Schools in response to the 
initial suicide [indiscernible] schools and [indiscernible] 
university, we asked kids the same question, what do you need 
as a result of [indiscernible]. We got the same answer: we had 
like more one on one contact. We said, that sounds simple 
enough, let's do that.
    So we started a mentorship program at Poplar Schools. We 
simply asked the kids to identify, identify an adult they 
trusted in the school. We took the kids' advice, someone you 
trust, a licensed therapist, a counselor, we don't care, just 
so you trust that person. The group we are talking about is 47 
kids who were identified at risk for suicide. At risk. We are 
dealing with them intensively.
    So those 47 kids went through the mentorship program and 
they also had a common history of assault. We had a lot of 
assault in that group. And then [indiscernible]. At the end of 
the mentorship, I am sorry, before the mentorship program, that 
group of 10 students had a rate of assault of .35, almost an 
assault every other month, .35 assaults per student per month. 
At the end of the mentorship program, it was .05. In other 
words, we effected a seven-fold decrease in assaults.
    We have calculated out, if they do that mentorship program 
with every student in the school, and the school now has a rate 
of about 300 assaults per year, we would take that rate to 
about 116 by simple mentorship, checking into those kids three 
times a year, one on one adult contact. That is pretty good 
news. It is a simple program. It is the kind of thing that can 
be replicated and can be [indiscernible]. We think that 
justifies the kind of Federal investment that is being made 
[indiscernible] other people [indiscernible].
    [The prepared statement of Mr. Manning follows:]

  Prepared Statement of Richard Manning, Research Associate, National 
         Native Children's Trauma Center, University of Montana

    The National Native Children's Trauma Center and the Institute for 
Educational Research and Service, both at the University of Montana, 
thank you for the opportunity to present our information on this issue 
of vital importance, not just to this community, but throughout Indian 
Country and to the nation as a whole. Much of what you will hear in 
overall testimony today will focus on the severity of a single 
problem--teen suicide--here at Fort Peck. While we do not minimize that 
single problem, we would like to report that through seven years of 
engagement between our group at the university and this community, all 
of us have learned a great deal about some of the broader issues, 
again, of vital interest throughout Indian Country and to the nation as 
a whole. One of those lessons is that showing up matters. Throughout 
our engagement here, working groups both large and small have traveled 
from the University in Missoula to this community on average every two 
months. But then we can't help but note and appreciate that the Indian 
Affairs Committee already knows this rule and proves it by showing up 
here for field hearings. We believe this community views this as a 
positive development.
    All of what we have learned here with the help of this community 
cannot be adequately summarized in this short testimony, but in service 
of the Committee's work, we would like to emphasize two over-arching 
lessons that we believe ought to guide everyone's efforts in these 
issues. In addition, we would like to report an encouraging new finding 
that demonstrates how attention to these two fundamental points 
succeeds.
    In convening this hearing, the Indian Affairs Committee, in fact, 
demonstrated the first important bit of knowledge by titling it: 
``Empowering Native Youth to Reclaim their Future.'' Everyone here 
today knows the headline-grabbing issue in this very school district 
has been a cluster of teen suicides, and the understandable urge is to 
do something now about that specific problem. In fact, our group from 
the university is engaged in exactly that, in doing something about 
suicide now. Nonetheless, as urgent as this issue is, the Committee's 
title urges us to not lose sight of the larger issues, and we agree. 
This is really about the future of Native youth, all youth. Teen 
suicide is not a single problem in isolation, but is part of a tangle 
of challenges that includes drug and alcohol abuse, family, community 
and gang violence, poor academic performance and a high drop-put rate, 
teen pregnancy, diabetes and obesity. Pulling a single thread will not 
untangle the larger Gordian knot of problems.
    Likewise, our nation now has a solid body of science compiled by 
both the Centers for Disease Control and the National Childhood 
Traumatic Stress Network sanctioned by Congress in 2001. Our National 
Native Children's Trauma Center is a Category II Center in that 
national network, charged with addressing these issues on reservations 
throughout the nation. The overwhelming evidence from those efforts 
concludes that the knot of problems we face here and in impoverished 
communities nationwide stem from child abuse, neglect and domestic and 
community violence, and in the case of reservation communities, 
historical trauma. We do have some evidence that some forms of abuse 
are particularly damaging. For instance, our researchers expect to soon 
publish data indicating a particularly strong link between childhood 
sexual abuse and teen suicide. Nonetheless, this does not negate our 
primary lesson here, that the knot of problems is wound up in a knot of 
causes, and we make little progress in these issues unless we recognize 
the complexity of the total picture.
    This presents a daunting challenge, but also leads to our second 
key point: Because the larger issue is a series of complex problems 
stemming from complex causes, no single agency, institution or 
bureaucracy can solve this alone. The hydra heads of challenges 
preventing Native youth from reclaiming their future must be dealt with 
by tribal health, social services, schools, juvenile justice and by 
families, especially families. The complexity dictates that all of 
these diverse elements and interests in the tribal community come 
together to share information and common strategy. We are all in this 
together. Federal, state, tribal, school district, and--yes, even 
academics from the university--must learn to cooperate in a common 
effort. That may be the most important lesson this community is 
learning and teaching the rest of us, not just that cooperation is 
necessary, but exactly how to tear down the barriers to cooperation so 
we can get to the hard work that faces us. These are not just 
platitudes; we have concrete examples of real success that stems from 
real cooperation.
    As you know, in response to the widely reported suicide cluster 
more than a year ago, the Fort Peck and Assiniboine Sioux Tribal 
Council declared a state of emergency in May of 2010, which triggered a 
deployment by the Office of Force Readiness of the U.S. Public Health 
Service and the Indian Health Service. IHS sent twenty-two officers, 
who rotated through the community in six separate teams, each in two-
week deployments. The incident commander of the deployment was James 
Melbourne, Director of Tribal Health Service. This extraordinary effort 
led to a formal report from IHS, which could have, in a lesser 
community, been sent to a shelf somewhere to gather dust. Not here. Our 
group at UM had already begun working with Director Melbourne on these 
issues, and agreed to cooperate on a way forward, using the IHS report 
as an information base. We built on their knowledge. Cooperatively, we 
wrote an application for a $1.4 million grant from the Substance Abuse 
and Mental Health Services Administration to pay for suicide prevention 
on the Fort Peck reservation. Senator Tester's office supported us and 
announced that our application was successful on July 28, and now a 
local agency--Tribal Health--a state university and a local school 
district will go to work fulfilling needs identified by the federal IHS 
and the tribes. This is what we mean by interagency cooperation and 
shared information. Further, because of this structure and the spirit 
of cooperation, our university has agreed to waive any indirect costs, 
a burden that can run as high as 41 percent on federal grants.
    Yet embedded in this is a development there is, we think, an even 
more revealing and encouraging bit of news. As part of its 
investigation, IHS took the rare and laudable step of actually 
interviewing the community's youth to solicit their ideas on how we 
might better serve them. The students gave us some common and revealing 
insights, and one of those was identifying a need for more meaningful 
adult contact, one-on-one relationships we might call mentoring. As 
part of the university's work at Poplar Schools, we repeated that 
question with a group of forty-seven students that screening had 
identified as being at-risk for suicide. We got a similar answer, so 
took the simple step of taking these children at their word. But in 
analyzing the data, we also noticed that a significant subset of the 
forty-seven also showed a pattern of assaulting other students and 
teachers, of violence. As we said, these problems are entangled, and 
often one problem like violence stemming from anger is a warning sign 
of another, like suicide.
    Listening closely to what the young people were telling us caused 
us to do something very simple, but responsive: to begin a mentorship 
program. Each student identified someone on school staff that he or she 
could trust--a pivotal step--and in every case the identified staffer 
agreed to check in with the student at least three times during a 
school year--just three times. They talked about issues like academic 
progress and attendance, but more to the point, mentors took an 
interest in students' well-being. The program effected simple human 
contact between a student and a caring adult, not someone specially 
trained or licensed or delivering a particular therapy, just someone 
the student herself identified as someone she trusted.
    The subset of ten students with a history of violence in the 
school, on average, accounted for 4.5 assaults per month in the two 
years and several months before teaming up with a mentor. That is, 
these kids, also at risk for suicide, accounted for a significant 
portion of the violence in the school. But more importantly, after 
these students participated in the simple program of mentoring, their 
assaults fell from an average of 4.5 per month to 0.71 per month. 
Conversely, three students identified as ``at risk'' of suicide and 
with a history of assault were denied parental permission to 
participate in the mentorship program. Their assaults decreased also, 
but not nearly as dramatically as those mentored. Seldom do those of us 
in this field see such a robust and dramatic result so quickly.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The bonus in all of this is that of the larger group of 47 students 
identified as ``at risk,'' those who were mentored also showed 
significant gains in academic achievement. In fact, the difference 
between the two groups--mentored and not--amounted to the difference 
between earning enough credits to graduate and failing to do so, one of 
the more significant predictors of a student's future.
    This is not to say this is a magic bullet that will solve the 
community's problems overnight, but there are a couple of points in all 
this worth emphasizing. The gains shown here occurred as a result of an 
open exchange of information and knowledge among various agencies, 
particularly IHS, the Tribal Health Service and Poplar Schools. But 
they also occurred because Poplar Schools staff has spent many years 
learning to recognize and deal with at-risk youth. That is to say, the 
community has built capacity, and it has paid off.
    Second, though, this is a cost-effective and simple program that 
rests on strengthening meaningful relationships between children and 
adults in this community, and now we have some evidence it works. It's 
the sort of work that can be easily and immediately replicated in 
similar communities with similar challenges, so the nation really can 
learn from Fort Peck. This, we think, helps justify the federal 
investment in this place and in these young people.

    Senator Tester. Thank you, Dick. We appreciate that.
    Thank you for your comments, and I as I told Deb earlier, 
we will have questions.
    Rounding out the first panel, we have Fanci Jackson, maybe 
the most important member of this panel. No offense to Deb or 
Dick. But the fact is that Fanci Jackson is a member of the 
Fort Peck Youth Council, and she is going to provide us a 
perspective from the youth side of things and what it is like 
growing up here on Fort Peck.
    Thank you for being here, Fanci.

  STATEMENT OF FANCI JACKSON, MEMBER, FORT PECK YOUTH COUNCIL

    Ms. Jackson. Hi, my name is Fanci Jackson and 
[indiscernible].
    I don't mean to [indiscernible] but from my perspective, I 
[indiscernible]. I went [indiscernible] and I was a over there 
for a half a year. It was very hard, actually.
    And the following year, it was really hard [indiscernible] 
no one knows how hard it is for you, you never tell anybody 
[indiscernible] because you are scared of what they will think 
of you. You are scared to tell anybody, because [indiscernible] 
you know people and you have to be [indiscernible] maybe 
[indiscernible] by that. And you don't want to do it and you 
get scared, you get terrified [indiscernible].
    But my [indiscernible] at school [indiscernible] so mean, 
they call me mean names and make fun of me [indiscernible] call 
me a [indiscernible]. I really was [indiscernible] I felt 
[indiscernible] because all my friends were there, and we were 
all the same, we were no different. When I went to 
[indiscernible] and so easy problems [indiscernible] could do 
in five seconds [indiscernible] that I was too not smart 
[indiscernible] that I couldn't do anything. But in that school 
I felt so stupid, I felt, why am I here, they don't want me 
here. The teachers don't want me here, the students don't want 
me. So why am I here? I was afraid to go to school sometimes 
[indiscernible]. I was [indiscernible].
    What I would like to bring to your attention is that we 
only got one [indiscernible] out of the whole year 
[indiscernible] had one B. I had straight As all across, 
distinguished honors and I got that B, it was the only one B I 
got for the last two years. I have never got a B 
[indiscernible]. I was proud, but scared [indiscernible] don't 
know [indiscernible] larger than happens [indiscernible]. Many 
of us don't have [indiscernible] hurts, even though we don't 
trust them. We don't tell a lot of people. Our friends see it, 
we see it but what do they do? They do nothing. They don't 
speak up. They don't talk about it. When someone talks, when 
someone makes fun of you, when someone hurts you so bad you 
want to cry, we don't talk to anybody, because we are afraid.
    And we don't know what to do. It is like [indiscernible] 
everybody embarrassment. You feel so embarrassed that you just 
want to cry and it hurts you so bad you don't know what to do. 
You are just sitting there [indiscernible] and you don't know 
what to say. So you just try to walk away but it just keeps 
coming back. They will keep following you and keep pushing you 
and pushing you and you still don't know what to do. And you 
are afraid [indiscernible] really hard.
    But [indiscernible] that is why I tried to stand up for my 
friends when they get bullied by other people. I see that and I 
don't like it one bit. I hate when people bully people. The 
bullies don't see how people that are being bullied, how they 
feel. I see my friends cry [indiscernible]. I told 
[indiscernible] I don't know who it was, but I told one of 
[indiscernible] half hour I told them [indiscernible] and that 
they should just leave them alone [indiscernible] do something 
else. My friend cried for a whole half hour she was so hurt. 
She didn't know what to do.
    And I was scared for her. Because sometimes bullying leads 
to suicide. A lot of my friends talk about it, suicide. They 
think, it is my way out. If I do this, I can get out of here, 
maybe it will be a better place. Maybe [indiscernible]. Only 
thing [indiscernible] we always think about getting out of 
here. When you are so deep down hurt that you don't know what 
to do or where to go, you don't think you have any other 
choice, you just want to die. But I am like, you really do, you 
want to leave this and you don't want to look back. That is 
when you are so deep down and you don't really care any more.
    I have some friends, one friend that I was actually like 
that when I got depressed. When I got depressed, my dad passed 
away in August, his memorial is coming up this weekend on the 
10th, he passed away [indiscernible] was so alone. I felt so 
alone in school, just knowing I had no one to talk to. I felt 
so alone deep down, I thought no one cared about me.
    I got so depressed I started lashing out at my sisters, I 
got angry at them [indiscernible] over something that was 
completely not even important, maybe a pop, maybe she walked by 
me and maybe looked at me the wrong way. I would just get mad 
and then [indiscernible] my mom told me that [indiscernible] 
she thought [indiscernible] and I was really getting bad into 
it. I was lashing out. I started picking [indiscernible].
    I thought if I leave [indiscernible] maybe I won't be 
alone, maybe I will see them then, he will care that I am 
there, maybe [indiscernible] see who I am. I felt so alone 
[indiscernible] and nobody talked to me. I told her 
[indiscernible] for maybe a few hours but [indiscernible]. I 
was hurting so bad nobody knew [indiscernible] just smile and 
act like nothing was wrong. I smiled for six months without 
telling anybody I was really, really depressed. I smiled 
through everything.
    But then I just wanted to cry. Every day I was just tired, 
didn't want to get up. Every day [indiscernible] just looking 
at that [indiscernible] outside each [indiscernible] woke up 
and go to school [indiscernible]. But then I thought of my mom, 
how much my mom loved me, how much my sisters loved me, how 
much my brother loves me, how much everyone loves me so much. 
And I couldn't leave them. What would they do without me? There 
is only one me. There is not going to be another me.
    So there is never going to be [indiscernible]. And I 
thought that I could be [indiscernible]. But some kids just 
don't [indiscernible] just give up. They just don't think 
[indiscernible]. But [indiscernible] I want to what my friends 
wanted to do but I tried to stop them, because I know that I 
love them too much for them to go. Some of my friends, one did 
[indiscernible] very silent and I was very sad, I barely 
[indiscernible] but I was very said that he passed away. 
[indiscernible] no one [indiscernible] my cousins passed away 
in April [indiscernible] almost [indiscernible]. I was coming 
back from a field trip and then I get the call that 
[indiscernible] and I just cried. I didn't know what to do. He 
was 23 years old, he has his whole life in front of him 
[indiscernible]. He was my best [indiscernible] and I love him 
so much [indiscernible].
    But sometimes being bullied doesn't mean being bullied in 
school but sometimes it can be outside of school. It can also 
be by family [indiscernible]. Sometimes [indiscernible] people 
you don't even know. You can get bullied everywhere, no matter 
what. He was bullied so much that he hung himself. And I walk 
by that garage every day, going to [indiscernible] and look in 
there wondering why, why did you have to leave, why. And it is 
all hurt so bad just knowing that he couldn't live any more. 
And knowing that I felt that way too. Then after 
[indiscernible] cried so much I wanted to kill myself, yes, but 
after I saw that, how many people got hurt by it, I wanted 
[indiscernible].
    Most people get really [indiscernible] some of my friends. 
Some people I don't even know, I will be walking down the road 
and I will see someone, they are pushing a kid around. I mean, 
we are all human, we are all the same color. Sometimes we are 
[indiscernible] we can actually resolve the conflict, but they 
don't, no one does. They just watch these kids beat each other, 
they just watch these kids beat each other up all the time and 
no one stops it. No one speaks up. No one tells that kid that 
they are not supposed to do that to that child.
    Because one day, what if tomorrow that little boy that got 
beat up [indiscernible] and that happens. It really does. I 
know it does. I have seen it happen. It [indiscernible] just 
knowing that your friend tomorrow [indiscernible] tomorrow is 
your friend that [indiscernible] yesterday [indiscernible] in 
the morning when I wake up and say hello [indiscernible] be 
there and say hello to him any more. He's gone.
    You have to [indiscernible] that what if all these people 
are being hurt, no one looks at them, no one eve sees them. 
Sometimes it is hard to see it. But they are hurt and you have 
to help them. If you don't help them, they are not going to be 
there tomorrow. There is only [indiscernible] what if tomorrow 
you don't see them. There is so many of them no one sees them. 
[indiscernible] but [indiscernible].
    Senator Tester. Thank you, Fanci. I appreciate that very 
much.
    I would like to start with Fanci, if I might, it is kind of 
reverse order. Your testimony was very good, and you are right, 
there is only one you. And people need to understand that. And 
to give up, it talks about the dire straits, you could be 
there.
    As you were giving your testimony, I was thinking about the 
peers that are around you, you talked about that, the family 
that is around you. Are you able to encourage, through the Fort 
Peck Youth Council, when people get bullied or for whatever 
reason and they get to feeling rejected, that there are people 
out there to go to talk to, kind of a support group, so to 
speak, to help them get back right with the world? Is that 
available to kids, whether you are in Poplar or Wolf Point or 
Frazier or wherever? Is there any kind of effort to try to make 
a group of your peers or a group of parents available?
    Ms. Jackson. Actually, I was just talked to my parents, but 
I don't know who to talk to about it. I mean, I didn't 
[indiscernible]. You don't think that anybody will believe you, 
you don't think that they will care.
    Senator Tester. But the fact is, there are people who care, 
right? You talked about your cousin.
    Ms. Jackson. Yes, [indiscernible] at the time I didn't 
[indiscernible].
    Senator Tester. Okay. That is fine.
    Dick Manning, the grant that you spoke of, and you talked 
about working together, you talked about partnerships, the $1.4 
million grant, what kinds of programs do you think would be 
available to develop with this in the end? Where are you going 
to focus the effort?
    Mr. Manning. It is actually about the 6th of November, and 
in the first phase, that has already happened, the initial 
grant a year ago. That is almost like a triage, we zoom in and 
identify as rapidly as possible the kids who are at risk of 
suicide. And they tend to be in a cluster, they tend to be kids 
who knew the kid who completed suicide. For instance, they tend 
to be very angry about that, they didn't see that as 
[indiscernible] those kids almost on a triage basis as rapidly 
as possible.
    And that step, that [indiscernible]. The other thing you do 
with that is, you try to train staff to recognize. And some 
evidence based on steps that we have seen in other places, for 
instance, the staff now are very sensitive to a missing child. 
When a child is not in school on a given day, we are calling 
the house trying to find out. In some cases, if they get no 
response at the house they go, literally, they take it that 
seriously. We think, we think that we have prevented two 
completions as a result of that work.
    But beyond that, as the effort continues, we can take it on 
a broader basis across the school and deal with some of the 
tougher issues that are out there, like bullying. Make people 
sensitive to bullying, take it seriously, it can happen. At 
least those kinds of things.
    And we try to concentrate initially on that suicide 
problem. Then we go spread out to the broader community and the 
broader setting of problems [indiscernible.]
    Senator Tester. One more question. There is been recent 
legislation that talks about tele-health as a method to be used 
for issues that revolve around mental health problems, 
psychological health, however you might want to put it. I just 
want to get your opinion. Is this an issue where tele-health 
can help? Tele-health, tele-medicine health. For instance, you 
have a health care professional in Boston, Massachusetts or 
Missoula, Montana or Billings or wherever talking to areas that 
are rural or frontier where you have a hard time getting health 
professionals, like right here.
    Mr. Manning. On a short-term basis, certainly. In this 
case, when we are worried about a suicide [indiscernible] I 
understand is not implemented but will be implemented in the 
spring. Suicide hot line [indiscernible] somebody to call in 
the [indiscernible]. But ultimately these issues resolve on 
something as simple as [indiscernible] and it really takes a 
village, the people who will support not somebody out 
[indiscernible] away. That first day it can be that. But 
ultimately, long term, one on one [indiscernible] works, it is 
the community support, it is creating an environment where 
people feel safe and welcomed [indiscernible].
    Senator Tester. Thanks.
    Deb, we send our kids to school and they spend a lot of 
time in school. And so even though the family is hugely 
important in this, and it is critically important, I think part 
of Fanci's testimony revolved around that, are there things 
that the school districts are doing or can do as it revolves 
around mental health?
    Ms. Halliday. Absolutely. As I was saying earlier, to look 
at a school system and know that kids aren't getting their 
rightful access to a quality education, and not understand that 
they feel [indiscernible] safe to [indiscernible] flourish in a 
school environment, that is a very central piece of our work.
    There are infrastructure pieces at schools. A lot of 
schools have school counselors who are trained to work with 
mental health. We have in our State a program where third party 
non-profit and for-profit mental health providers partner with 
the school systems to provide some care and then they go 
Medicaid for that, which is trying to get some of the 
challenges of getting services into a rural area.
    I think this is a lot of work that can be done though 
around, as they were saying, relationship-building, encouraging 
teachers and staff to see themselves as a very important, safe, 
consistent adult in a child's life. And there is a lot of 
really great work that is happening in our State through 
something called Montana Behavioral Initiative, which is part 
of the Office of Public Instruction, that teaches adults in the 
school system how to just have a very consistent, caring way 
with kids. We are doing some of that work through the Schools 
of Promise work as well.
    Senator Tester. In areas where there is a real problem with 
teen suicide, and you talked about the role that counselors 
play, and what a critical role they can play, and the classroom 
teacher, as far as that goes. Does OPI have the resources or 
the ability, either one, to be able to give help to a school 
district where they are seeing an influx in problems?
    Ms. Halliday. Suicide particularly?
    Senator Tester. Yes, in suicide particularly.
    Ms. Halliday. Well, we are very strong local control State, 
so a tremendous amount of decisions of personnel and program 
and budget are decided at the school board level. So this 
[indiscernible] one of our [indiscernible] legislation is going 
to be put forward was to require school districts to have 
baseline for what the anti-bullying policy would look like, the 
four components of it, definition, and that would be readily 
available to any parent or student who would want to know what 
the policy was. That was defeated.
    But what we are doing anyway is creating a model bullying 
policy. I know that several of the public schools here in Fort 
Peck have been working, I think as a result of the IHS work 
[indiscernible] to try and revamp their bullying policies. But 
change really only happens when people change their behaviors. 
So I really, it resonated with me when Roxanne said, I don't 
want to hear about another policy, I want to know our kids are 
going to be loved and taken care of [indiscernible].
    Senator Tester. I want to thank you all for your 
contribution to this hearing. I very much appreciate your 
testimony and your forthrightness. We have some issues here 
that need to be dealt with, and we appreciate your leadership, 
whether it is leadership with our youth, or leadership in the 
capacity that you are in in your jobs. Thank you for that.
    So I will release you now. In the meantime, I will ask Dr. 
Weahkee to come up, Ed Parisian to come up, and Dr. McKeon.
    While they are getting set down, I will just tell you that 
our next panel represents the Federal Government's response to 
this crisis. They are going to tell us not only what they are 
doing, but also what communities throughout Indian Country can 
do to address this. We are going to first hear from Dr. Rose 
Weahkee, who is Director of Behavioral Health and the Indian 
Health Service. Rose has dedicated years to preventing these 
tragedies from occurring. We thank all three of you for being 
here today. We very much appreciate your presence at this 
Indian Affairs Committee hearing.
    And we will hear from Rose first.

    STATEMENT OF ROSE WEAHKEE, Ph.D., DIRECTOR, DIVISION OF 
            BEHAVIORAL HEALTH, INDIAN HEALTH SERVICE

    Ms. Weahkee. Thank you, Mr. Chairman, Senator Tester. Good 
afternoon. I am Dr. Rose Weahkee, Director of the Indian Health 
Service Division of Behavioral Health.
    I am pleased and honored to have this opportunity to 
testify on the Indian Health System's response to youth suicide 
in Indian Country.
    As you know, IHS plays a unique role in the U.S. Department 
of Health and Human Services to meet the Federal trust 
responsibility to provide health care to American Indians and 
Alaska Natives. In this ongoing effort to meet the health and 
behavioral health challenges, there is of course a trend toward 
tribal management and delivery of behavioral health services. 
Currently 54 percent of mental health and 84 percent of alcohol 
and substance abuse programs are tribally-operated. This 
evolution in behavioral health care delivery and management is 
changing the face of behavioral health services in Indian 
Country.
    Where IHS was previously the principal behavioral health 
care delivery system, there is now a more diverse network of 
care provided by Federal, tribal and urban Indian health 
programs. This ``Indian health system'' denotes this larger 
network of programs and the evolving care delivery system 
across Indian Country.
    Suicide is a complicated public health challenge with many 
contributing risk factors. In the case of American Indians and 
Alaska Natives, they face, on average, a greater number of 
these risk factors and the risk factors are more severe in 
nature. For years, several communities in Indian Country 
experienced suicide contagion, often referred to as suicide 
clusters. In these communities, the suicidal act becomes a 
regular and transmittal form of expression of the despair and 
hopelessness experienced by some Indian youth.
    On a national level, American Indian and Alaska Native 
communities are also affected by very high levels of poverty, 
unemployment, accidental death, domestic violence, alcoholism 
and child abuse. American Indian and Alaska Native people 
suffer significantly from mental health disparities. While the 
need for mental health care is great, services are lacking and 
access to these services can be difficult and costly. The 
availability and adequacy of mental health programs for 
American Indians varies considerably across communities.
    IHS has devoted considerable efforts to develop and share 
effective programs. Developing programs that are collaborative, 
community-driven and nationally supported offer the most 
promising potential for long-term success and sustainment. The 
IHS National Tribal Advisory Committee on Behavioral Health, 
which is made up of elected tribal leaders from each of the IHS 
areas, provides recommendations and advice on the range of 
behavioral health issues in Indian Country. The IHS Behavioral 
Health Work Group is the technical advisory group to IHS and is 
made up of mental health professionals from across Indian 
Country. They provide expert advice and recommendations for 
services and program delivery.
    The Indian Health Service Suicide Prevention Committee was 
established and tasked with identifying and defining the steps 
needed to prevent suicide and suicide-related behaviors. The 
Indian Health Service methamphetamine and Suicide Prevention 
Initiative is a nationally coordinated pilot program, which 
supports 127 IHS, tribal and urban Indian health programs that 
are providing methamphetamine and suicide prevention resources 
to communities with the greatest need.
    Just this past week, on August 1st, in partnership with 
tribes, IHS released the American Indian/Alaska Native National 
Behavioral Health and Suicide Prevention Strategic Plans. These 
strategic plans will foster collaboration and other key 
community resources.
    Also, in November 2010 to February 2011, IHS, SAMHSA, BIA 
and BIE held ten suicide prevention listening sessions to seek 
input from tribes on how our agencies can most effectively work 
in partnership with tribes to prevent suicide. This information 
was used to form the agenda for the Action Summit for Suicide 
Prevention which was held just this past week with over 1,000 
in attendance. The IHS and the Veterans Health Adminsitration 
Suicide Prevention office have also developed a joint plan to 
address suicide among our Native veterans and their families. 
VA has also participated in many of the suicide prevention 
listening sessions and also in the Action Summit last week.
    Also, on December 30th, 2010, the National Action Alliance 
for Suicide Prevention announced an American Indian and Alaska 
Native task force to address the issue of suicide in Indian 
Country, and also to advance a national strategy for suicide 
prevention. Jointly leading this task force are Dr. Yvette 
Roubideaux, the Director for IHS, Mr. Larry Echo Hawk, 
Assistant Secretary of Indian Affairs, Department of the 
Interior, and Mr. McClellan Hall, the Executive Director of the 
National Indian Youth Leadership Program.
    In summary, we look forward to addressing the issue of 
mental health care needs in Indian Country. Our partnership and 
our consultation with tribes has shown that we are working 
together to improve the health of American Indian and Alaska 
Native communities. As you heard today, together we can instill 
culture, language and spirituality, together we can instill 
hope.
    Mr. Chairman, this concludes my statement. Thank you again 
for allowing me to testify. I would be happy to answer any 
questions that you might have.
    [The prepared statement of Ms. Weahkee follows:]

   Prepared Statement of Rose Weahkee, Ph.D., Director, Division of 
                Behavioral Health, Indian Health Service

    Mr. Chairman and Members of the Committee:
    Good Afternoon, I am Dr. Rose Weahkee, Director of the Indian 
Health Service (IHS) Division of Behavioral Health. I am pleased to 
have this opportunity to testify on the Indian health system's response 
to youth suicide in Indian Country.
    The IHS plays a unique role in the U.S. Department of Health and 
Human Services to meet the Federal trust responsibility to provide 
health care to American Indians and Alaska Natives (AI/AN). The IHS 
provides comprehensive health service delivery to approximately 1.9 
million Federally-recognized American Indians and Alaska Natives 
through a system of IHS, Tribal, and Urban facilities and programs 
based on treaties, judicial determinations, and Acts of Congress. The 
mission of the agency is to raise the physical, mental, social, and 
spiritual health of AI/ANs to the highest level, in partnership with 
the population served. The agency aims to assure that comprehensive, 
culturally acceptable personal and public health services are available 
and accessible to the service population. Our goal is to promote 
healthy AI/AN people, communities, and cultures, and to honor the 
inherent sovereign rights of Tribes.
    The IHS is responsible for providing mental health services to the 
AI/AN population it serves. The IHS Mental Health/Social Service (MH/
SS) program is a community-oriented clinical and preventive mental 
health service program that provides primarily outpatient mental health 
and related services, crisis triage, case management, prevention 
programming, and outreach services. The most common MH/SS program model 
is an acute, crisis-oriented outpatient services staffed by one or more 
mental health professionals. Many of the IHS, Tribal, and urban mental 
health programs that provide services are not open 24/7. Therefore, 
when an emergency or crisis occurs, the clinic and service units will 
often contract out such services to non-IHS hospitals and crisis 
centers.
    In the ongoing effort to meet the health and behavioral health 
challenges, there is a trend toward Tribal management and delivery of 
behavioral health services in AI/AN communities. Particularly in the 
last decade, Tribes have increasingly contracted or compacted via the 
Indian Self Determination and Education Assistance Act, Public Law 93-
638, to provide those services themselves. Currently, 54 percent of the 
mental health and 84 percent of the alcohol and substance abuse 
programs are operated by Tribes. This evolution in behavioral health 
care delivery and management is changing the face of behavioral health 
services in Indian Country.
    Where IHS was previously the principal behavioral health care 
delivery system for AI/ANs, there is now a less centralized and more 
diverse network of care provided by Federal, Tribal, and Urban Indian 
health programs. The ``Indian health system'' denotes this larger 
network of programs and the evolving care delivery system across Indian 
Country. Meeting the needs of this system will require an evolution in 
IHS and Tribal collaboration as well, particularly as Tribal programs 
take more direct responsibility for services and IHS supports them in 
doing so.
Introduction
    Suicide is a complicated public health challenge with many 
contributing risk factors. In the case of AI/ANs, they face, on 
average, a greater number of these risk factors individually or the 
risk factors are more severe in nature for them. In prior years, 
several communities in Indian Country experienced suicide contagion, 
often referred to as suicide clusters. In these communities, the 
suicidal act becomes a regular and transmittable form of expression of 
the despair and hopelessness experienced by some Indian youth.
    The AI/AN suicide rate (17.9 per 100,000) for the three year period 
(2002-2004) in the IHS service areas is 1.7 times that of U.S. all 
races rate (10.8 per 100,000) for 2003. Suicide is the second leading 
cause of death behind unintentional injuries for Indian youth ages 15-
24 residing in IHS service areas and is 3.5 times more frequently in 
those areas than the national average. Suicide is the sixth leading 
cause of death overall for males residing in IHS service areas and 
ranks ahead of homicide. AI/AN young people ages 15-34 comprise 64 
percent of all suicides in Indian Country. \1\ Suicide mortality rates 
have increased from 45.9 per 100,000 to 55.2 per 100,000 among AI/AN 
youth ages 15-24, comparing data from 2003-2005 to those from 1999-
2001. Overall, suicide mortality is 73 percent greater in AI/AN 
populations in IHS service areas compared to U.S.--All races. \2\
---------------------------------------------------------------------------
    \1\ Indian Health Service. Office of Public Health Support. 
Division of Program Statistics. Trends in Indian Health, 2002-2003. 
Rockville, MD: Indian Health Service.
    \2\ Unpublished data, Office of Public Health Support. Division of 
Program Statistics. Indian Health Service.
---------------------------------------------------------------------------
    On a national level, many AI/AN communities are also affected by 
very high levels of poverty, unemployment, accidental death, domestic 
violence, alcoholism, and child neglect. \3\ AI/AN people suffer 
significantly and disproportionately from mental health disparities and 
lack access to culturally appropriate care. Each of these serious 
health issues has a profound impact on the health of individual, 
family, and community well being both on- and off-reservations.
---------------------------------------------------------------------------
    \3\ Manson, S.M. (2004). Cultural Diversity Series: Meeting the 
Mental Health Needs of American Indians and Alaska Natives. National 
Association of State Mental Health Program Directors (NASMHPD) and the 
National Technical Assistance Center for State Mental Health Planning.
---------------------------------------------------------------------------
    According to a 2001 mental health supplemental report of the U. S. 
Surgeon General, ``Mental Health: Culture, Race, and Ethnicity,'' there 
are limited mental health services in Tribal and urban Indian 
communities. \4\ While the need for mental health care is great, 
services are lacking, and access to these services can be difficult and 
costly. \5\ The current system of services for treating mental health 
problems of AI/ANs is a complex and often fragmented system of Tribal, 
Federal, State, local, and community-based services. The availability 
and adequacy of mental health programs for AI/ANs varies considerably 
across communities. \6\ Navigating complex or fragmented combinations 
of Tribal, Federal, State, local, and community-based services can be 
confusing and discouraging, making it difficult to access care even if 
it is available. In addition, severe provider shortages are common. \7\
---------------------------------------------------------------------------
    \4\ U.S. Department of Health and Human Services. (2001). Mental 
Health: Cultural, race, and ethnicity supplement to mental health: 
Report of the Surgeon General. Rockville, MD: U.S. Department of Health 
and Human Services, Substance Abuse and Mental Health Services 
Administration, Center for Mental Health Services, National Institutes 
of Health, National Institute of Mental Health.
    \5\ Manson, S.M. (2004). Cultural Diversity Series: Meeting the 
Mental Health Needs of American Indians and Alaska Natives. National 
Association of State Mental Health Program Directors (NASMHPD) and the 
National Technical Assistance Center for State Mental Health Planning.
    \6\ Ibid.
    \7\ More Mental Health Resources Needed to Battle Teen Suicides in 
American Indian and Alaska Native Communities. (2010, May). U.S. 
Medicine: The Voice of Federal Medicine. Retrieved March 28, 2010 from 
http://www.usmedicine.com/articles/more-mental-health-resources-needed-
to-battle-teen-suicides-in-american-indian-and-alaska-native-
communities.html
---------------------------------------------------------------------------
    There are many reasons for a lack of access to care and services. 
Indian Country is predominantly rural and remote, and this brings with 
it the struggles of recruiting and retaining providers. Rural practice 
is often isolating for its practitioners. The broad range of clinical 
conditions faced with limited local resources challenges even seasoned 
providers. Some providers are so overwhelmed by the continuous demand 
for services, particularly during suicide outbreaks, that even 
experienced and hard working providers become at-risk for burn-out.
    In addition to clinical care, the importance of public health and 
community- and culture-based interventions is becoming more widely 
recognized. \8\ One factor that makes community- and culture-based 
interventions especially important is the role of historical trauma in 
the increased risk of suicide among AI/AN people. Historical trauma, 
exacerbated by re-traumatization of the community from the high rates 
of injury and death, continues to plague Indian communities. \9\ 
Historical trauma is also linked to increased suicide risk because 
anger, aggression, and violence felt in response to experiences of 
victimization can be turned against oneself. \10\
---------------------------------------------------------------------------
    \8\ Grim, C.W. (2006, May 17). Testimony of Charles W. Grim, 
Director of the Indian Health Service, before the Senate Committee on 
Indian Affairs on Suicide Prevention Programs and Their Application in 
Indian Country. Washington, DC. Retrieved from http://
www.indian.senate.gov/public/_files/Grim051706.pdf
    \9\ Brave Heart, M. Y. H. and DeBruyn, L. M. (1998). The American 
Indian Holocaust: Healing Historical Unresolved Grief. American Indian 
and Alaska Native Mental Health Research, 8(2), 61.
    \10\ Subia BigFoot, D. (n.d.) History of Victimization in Native 
Communities [Monograph]. Retrieved March 28, 2010 from http://
icctc.org/History%20of%20Victimization%20Issues-%20Final.pdf
---------------------------------------------------------------------------
Addressing Suicide in Indian Country
    Since 2008, IHS has devoted considerable effort to develop and 
share effective programs throughout the Indian health system. In 
particular, developing programs that are collaborative, community 
driven, and nationally supported, we believe, offer the most promising 
potential for long term success and sustainment. As an example of this, 
IHS regularly relies on Tribal leadership and expertise to collaborate 
on a range of behavioral health problems and programs.
    The IHS National Tribal Advisory Committee (NTAC) on Behavioral 
Health, which is made up of elected Tribal leaders from each IHS Area, 
provides recommendations and advice on the range of behavioral health 
issues in Indian Country. From making recommendations on significant 
funding allocations and service programs, to developing long term 
strategic plans for Tribal and Federal behavioral health programs for 
the future, the NTAC is the principal Tribal advisory group for all 
behavioral health services to IHS. They ensure collaboration among 
Tribal and Federal health programs, provide Tribal input into the 
development of programs and services, and also provide the inclusive 
and transparent development of processes and programs so important to 
all our communities and programs.
    The IHS National Behavioral Health Work Group (BHWG) is the 
technical advisory group to IHS. Comprised of mental health 
professionals from across the country, the BHWG furthers the agency 
priorities to strengthen partnerships with Tribes, improve quality and 
access to care for patients, and provide direct collaboration and input 
for accountable, fair, and inclusive services across the Indian 
behavioral health system. They provide expert advice and 
recommendations for services, programs, and intervention models, as 
well as long term strategic planning and goal development. As the 
national technical advisory group to the agency, they also work very 
closely with the elected Tribal leaders on the NTAC to provide 
collaborative links between the professional community and national 
Tribal leadership.
    The IHS Suicide Prevention Committee (SPC) was established and 
tasked with identifying and defining the steps needed to significantly 
reduce and prevent suicide and suicide-related behaviors in AI/AN 
communities. It is the responsibility of the SPC to provide 
recommendations and guidance to the Indian health system regarding 
suicide prevention, intervention, and postvention in Indian Country.

IHS Methamphetamine and Suicide Prevention Initiative
    The IHS Methamphetamine and Suicide Prevention Initiative (MSPI) is 
a nationally-coordinated demonstration pilot program, focusing on 
providing targeted methamphetamine and suicide prevention and 
intervention resources to communities in Indian Country with the 
greatest need for these programs. IHS, Tribes, Tribal programs, and 
other Federal agencies concurrently coordinate the development and 
implementation of the MSPI project, which now provides support to 127 
IHS, Tribal, and urban Indian health programs nationally. The strategic 
goal is to support Tribal programs in their prevention, treatment, and 
infrastructure development as they increasingly are delivering their 
own services. The MSPI implemented by IHS and its Tribal partners 
nationally, marks a significant milestone in suicide prevention efforts 
in Indian Country as well as Tribal and Federal partnerships for health 
that embraces the Administration's commitment to Tribal engagement and 
partnership.
    To create the overall MSPI approach, IHS engaged in close 
collaboration with Tribes and Tribal leaders over the course of almost 
a year. During this time, Tribal leaders developed a model and 
recommendations, which were accepted by IHS, for approaches and funding 
allocations. It was and remains a creation of close collaboration and 
partnership with Tribes. The program is community driven from 
conception through execution for each program in each community. Indian 
communities decide what they need and establish programs to meet those 
needs.
    The MSPI data currently available indicate that a total of 289,066 
persons have been served through both prevention and treatment 
activities. Prevention activities include, but are not limited to 
evidence-based practice training, knowledge dissemination, development 
of public service announcements and publications, coalition 
development, and crisis hotline enhancement. There were 42,895 youth 
participating in evidence-based and/or promising practice prevention or 
intervention programs. There were 674 persons trained in suicide crisis 
response teams.

American Indian/Alaska Native National Behavioral Health and Suicide 
        Prevention Strategic Plans
    On August, 1, 2011, in partnership with Tribes, IHS released the 
American Indian/Alaska Native National Behavioral Health and Suicide 
Prevention Strategic Plans. These strategic plans will foster 
collaborations among Tribes, Tribal organizations, urban Indian 
organizations, and other key community resources. These collaborations 
will provide tools needed to adapt the shared wisdom of these 
perspectives, consolidate our experience, target our efforts towards 
meeting the changing needs of our population, and develop the framework 
that will serve to pave the way over the coming years to address 
suicide and behavioral health in Indian Country.
    The American Indian/Alaska Native National Behavioral Health 
Strategic Plan is the culmination of over two years of close 
collaborative work, and contains three overarching strategic directions 
which are operationalized into 77 action steps, most of which are 
already in progress. It is the strategic framework for the continuing 
development of programs and services across the AI/AN behavioral health 
system, with an added emphasis on Tribal, Federal, and Urban program 
collaboration.
    The American Indian/Alaska Native National Suicide Prevention 
Strategic Plan represents the combined efforts of Tribal, Federal, 
Urban, and other representatives across the country to develop 
strategic goals and objectives to address the ongoing suicide epidemic 
in so many of our communities. The suicide epidemic is the single most 
significant cause of concern across our communities and requires 
specific planning and program implementation, which this plan 
represents in eight strategic goals and 41 objectives.
    The importance of including culture, cultural and traditional 
practices, and a variety of learning approaches is included in these 
strategic plans and should not be underestimated. AI/ANs see behavioral 
health as supporting their historic and continuing reliance on elders, 
languages, community, culture, and traditional practices as protective 
factors that restore balance and serve as both prevention and 
treatment.

IHS Partnerships
    Strategies to address mental health and suicide include 
collaborations and partnerships with consumers and their families, 
Tribes and Tribal organizations, urban Indian health programs, Federal, 
State, and local agencies, as well as public and private organizations. 
This effort seeks to establish effective long-term strategic approaches 
to address mental health and suicide prevention in Indian Country.
    IHS and the Substance Abuse and Mental Health Services 
Administration (SAMHSA) work closely together to formulate long term 
strategic approaches to address the issues of suicide and mental health 
care in Indian Country more effectively. For example, IHS and SAMHSA 
are actively involved on the Federal Partners for Suicide Prevention 
Workgroup. In 2001, the Office of the Surgeon General coordinated the 
efforts of numerous agencies, including IHS, SAMHSA, Centers for 
Disease Control and Prevention (CDC), National Institute for Mental 
Health (NIMH), Health Resources and Services Administration (HRSA), and 
other public and private partners to develop the first, comprehensive, 
integrated, public health approach to reducing deaths by suicide and 
suicide attempts in the United States in the National Strategy for 
Suicide Prevention. This resulted in the formation of the ongoing 
Federal Partners for Suicide Prevention Workgroup.
    IHS, SAMHSA, Bureau of Indian Affairs (BIA), and Bureau of Indian 
Education (BIE) held ten regional suicide prevention listening sessions 
across Indian Country over the last twelve months to seek input on how 
the agencies can most effectively work in partnership with Tribes to 
prevent suicide. The Tribal listening sessions provided important 
information on suicide prevention needs, concerns, programs, and 
practices. This information was used to form the agenda for the Action 
Summit for Suicide Prevention held from August 1-4, 2011 in Scottsdale, 
AZ with over 1,000 in attendance. This collaborative work also paved 
the way for other Federal partners to join in the effort to prevent 
suicide among AI/ANs. For example, IHS and the Veterans Health 
Administration (VHA) Suicide Prevention Office have developed a joint 
plan to address suicide among Native veterans. VHA Suicide Prevention 
Coordinators participated in several of the listening sessions.
    On September 10, 2010, Department of Health and Human Services 
Secretary Kathleen Sebelius and Department of Defense Secretary Robert 
M. Gates announced the creation of the National Action Alliance for 
Suicide Prevention. The Action Alliance is expected to provide an 
operating structure to prompt planning, implementation and 
accountability for updating and advancing the National Strategy for 
Suicide Prevention. On December 30, 2010, the National Action Alliance 
for Suicide Prevention announced three new task forces to address 
suicide prevention efforts within high-risk populations including 
American Indians/Alaska Natives. Jointly leading the American Indian/
Alaska Native Task Force are Yvette Roubideaux, M.D., M.P.H., Director 
of the Indian Health Service; Larry Echo Hawk, J.D., Assistant 
Secretary of Indian Affairs, Department of the Interior; and McClellan 
Hall, M.A., Executive Director, National Indian Youth Leadership 
Project.
    Tribes also look to SAMHSA for help in addressing youth suicides. 
Through its Garrett Lee Smith State and Tribal Grants, Tribes and 
Tribal organizations have received grants ranging from $400,000 to 
$500,000 a year to prevent suicide. In addition, SAMHSA:

  <bullet> Funds the Native Aspirations project which is a national 
        project designed to address youth violence, bullying, and 
        suicide prevention through evidence-based interventions and 
        community efforts. Through the Native Aspirations project, AI/
        AN communities determined to be the most ``at risk'' develop or 
        enhance a community-based prevention plan.

  <bullet> Supports the Suicide Prevention Resource Center which is a 
        national resource and technical assistance center that advances 
        the field by working with Tribes, States, territories, and 
        grantees by developing and disseminating suicide prevention 
        resources.

  <bullet> Funds the National Suicide Prevention Lifeline, a network of 
        crisis centers across the United States that receives calls 
        from the national, toll-free suicide prevention hotline number, 
        800-273-TALK. The National Suicide Prevention Lifeline's 
        American Indian initiative has promoted access to suicide 
        prevention hotline services in Indian Country by supporting 
        communication and collaboration between Tribes and local crisis 
        centers as well as providing outreach materials customized for 
        each Tribe.

Summary
    In summary, we look forward to opportunities to address the suicide 
and mental health care needs in Indian Country. For the IHS, our 
business is helping our communities and families achieve the highest 
level of wellness possible. IHS has devoted considerable effort to 
develop and share effective programs throughout the Indian health 
system. We believe developing programs that are collaborative, 
community driven, and nationally supported offer the most promising 
potential for long term success and sustainment. Our partnership and 
consultation with Tribes ensure that we are working together in 
improving the health of AI/AN communities.
    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to testify. I will be happy to answer any questions that 
you may have.

    Senator Tester. Thank you, Rose. We will have some 
questions a little later. Thank you very much for your 
testimony.
    Next we are going to hear from Ed Parisian. Ed is the 
Billings Regional Director of the Bureau of Indian Affairs. Ed 
is responsible for improving upon many of the risk factors that 
contribute to youth suicide, primarily safe communities and 
violence issues. He will tell us how the new Tribal Law and 
Order Act is going to impact reservation communities and make 
them a better place. Thank you for being here, Ed.

         STATEMENT OF EDWARD PARISIAN, DIRECTOR, ROCKY 
          MOUNTAIN REGIONAL OFFICE, BUREAU OF INDIAN 
         AFFAIRS, UNITED STATES DEPARTMENT OF INTERIOR

    Mr. Parisian. Thank you, Senator Tester. I am pleased to be 
here to talk on the topic of empowering Native youth to reclaim 
their future. I also want to thank your staff.
    American Indian and Alaska Native youth suicide is a 
devastating, serious problem in Indian Country. Data and 
research have shown that social factors such as poverty, 
alcoholism, gangs and violence contribute in the manifestation 
of suicide ideation, suicidal behavior and suicide attempts by 
American Indian youth in Indian Country. As the members of this 
Committee are aware, BIA programs assist tribal communities in 
developing their natural and social-economic infrastructures or 
provide services to fill infrastructure gaps.
    For the BIA, suicidal events significantly impact law 
enforcement personnel since they are the most likely first 
responders to suicide events. There is also a significant 
impact on students, teachers, administrators and other school 
staff when handling suicide ideation, gestures, attempts and 
completions within the Bureau of Indian Education school 
system.
    The BIE has developed a Suicide Prevention, Early 
Intervention and Postvention Policy to promote suicide 
prevention in BIE schools. The policy mandates specific actions 
in all schools, dormitories and the two post-secondary 
institutions and encourages tribally-operated schools to 
develop similar policies. These actions create a safety net for 
students at risk of suicide and promotes proactive involvement 
of school personnel and communities in intervention, prevention 
and postvention activities. There are also ongoing efforts to 
address these issues through partnerships with behavioral 
health and social services organizations at both the tribal and 
national level with SAMHSA and the Indian Health Service.
    Within the Indian Affairs, BIA's Law Enforcement and Tribal 
Services programs, along with BIE continue to seek ways to 
collaborate and to support activities directed at suicide 
prevention and services coordination. The BIE utilizes the 
Youth Risk Behavior Survey, the Native American Student 
Information System, local BIA law enforcement and IHS data to 
develop interventions and track trends for program 
implementation and is committed to seeking out and enacting 
prevention strategies while ensuring a safe and secure 
environment for our students.
    Indian Affairs' most direct action in youth suicide 
prevention is through the BIE, the Bureau of Indian Education. 
The BIE's Division of Performance and Accountability ha been 
providing suicide prevention activities through funds provided 
by the U.S. Department of Education's Title IV Part A Safe and 
Drug-Free Schools and Communities program. Serving in a similar 
capacity as a State educational agency, the BIA is required to 
use these funds to provide technical assistance to the schools 
to reduce drug and alcohol abuse and violence by 2 percent 
annually. The BIE's DPA has provided technical assistance in 
the development and implementation of data-driven programs and 
evidence-based curriculum.
    While the SDFS program has been discontinued, ongoing 
technical assistance and monitoring is provided by regional 
school safety specialists to ensure schools are compliant with 
intervention strategies and reporting protocols to further 
ensure student safety. BIE's partnering with other Federal 
agencies, including SAMHSA and IHS and the Department of 
Education has enabled BIE to address the unique needs of 
students within these schools in the areas of behavioral health 
and suicide prevention efforts.
    Additionally, BIE schools and dormitories use NASIS to 
track and identify specific behavior trends to develop 
interventions to address school-specific behavior issues. BIE 
has developed two technical assistance training sessions that 
include both a basic and coaching level course. The basic 
course covers initial program development, policy development, 
best practices and implementation and the coaching level course 
focuses on adult wellness issues and youth development. The 
framework of the session is based on Native resiliency and 
cultural practices that support a positive school climate.
    On November 12th, 2010, Larry Echo Hawk, Assistant 
Secretary, Indian Affairs, Yvette Roubideaux, Director, Indian 
Health Service, and Pamela Hyde, Administrator of SAMHSA, 
announced to tribal leaders that BIA, IHS and SAMHSA would 
sponsor listening sessions to hear the needs and concerns 
regarding youth suicide in Indian Country. The purpose of the 
listening sessions were to gather tribal input on how we can 
best support the goals and programs of tribes for preventing 
suicide in tribal communities.
    The listening sessions began on November 15th, 2010, and 
ended on February 10th, 2011. Over this four-month period, BIA, 
IHS and SAMHSA met with several tribes from all the BIA 
regions. We held these listening sessions in Indian Country to 
gain first-hand knowledge from the American Indian and Alaska 
Native communities to see how best we can all, as partners, 
prevent youth suicide and to identify specific needs expressed 
by tribal community leaders, clinicians, practitioners and 
youth.
    Information gathered from these listening sessions was used 
at the Action Summit for Suicide Prevention held in Scottsdale, 
Arizona last week from August 1st through 4th. I attended the 
Action Summit, along with other Indian Affairs staff and key 
leadership in the Office of the Assistant Secretary. A lot of 
what we have heard this afternoon about, we can't do it by, 
just one tribe can't do it, one office, I just can't do it, one 
of the messages I took from that was that it is going to take a 
community. It is going to take all resources. We have to give 
up a little bit here and a little bit there, and we have to put 
our resources together if we are going to make this happen. We 
can't have ownership, it has to be flexibility on our 
resources. That way we will prevent duplication. This is one of 
the major things that I took away from that conference. It is 
one of the things we have heard across the Country from the 
listening sessions that they held.
    I kind of got a little bit off of my testimony, but it is 
there for the record, Senator. And I will end because I feel my 
hook coming. I will be happy to answer any questions that you 
may have.
    [The prepared statement of Mr. Parisian follows:]

    Prepared Statement of Edward Parisian, Director, Rocky Mountain 
Regional Office, Bureau of Indian Affairs, United States Department of 
                                Interior

    Good Afternoon Mr. Chairman, Mr. Vice Chairman and Members of the 
Committee, my name is Edward Parisian and I am the Regional Director 
for the Bureau of Indian Affairs (BIA) Rocky Mountain Regional Office 
in Billings, Montana. I have served in this capacity since April 1, 
2008. I am pleased to be here today to provide the Department's 
statement on the topic of ``Empowering Native Youth to Reclaim Their 
Future,'' which relates to American Indian and Alaska Native youth 
suicide prevention.
    American Indian and Alaska Native youth suicide is a serious 
problem in Indian Country. Data and research have shown that social 
factors such as poverty, alcoholism, gangs, and violence contribute in 
the manifestation of suicide ideation, suicidal behavior and suicide 
attempts by American Indian youth in Indian Country. See To Live To See 
the Great Day That Dawns: Preventing Suicide by American Indian and 
Alaska Native Youth and Young Adults, 2010 Publication by Substance 
Abuse and Mental Health Services Administration (SAMHSA), U.S. 
Department of Health and Human Services.
    According to the Centers for Disease Control (CDC) data on 
``Leading Causes of Death by Age Group, American Indian or Alaska 
Native Males--United States, 2006,'' suicide was the second leading 
cause of death for ages 10-34. The same 2006 data from the CDC for 
American Indian or Alaska Native females showed that suicide was the 
first leading cause of death for ages 10-14, the second leading cause 
of death for ages 15-24, and the third leading cause of death for ages 
25-34. Additionally, SAMHSA in its 2010 publication, To Live To See the 
Great Day That Dawns: Preventing Suicide by American Indian and Alaska 
Native Youth and Young Adults, states that young people account for 
forty percent (40 percent) of all suicides in Indian Country.
    As the members of this Committee are aware, BIA programs assist 
tribal communities in developing their natural and social-economic 
infrastructures (i.e., tribal governments, tribal courts, cultural 
vitalization, community capabilities, etc.) or provide services to fill 
infrastructure gaps (i.e., education, law enforcement, social services, 
housing improvement, transportation, etc.). For the BIA, suicidal 
events significantly impact law enforcement personnel since they are 
the most likely first responders to suicidal events. There is also a 
significant impact on students, teachers, administrators and other 
school staff when handling suicide ideation, gestures, attempts and 
completions within the Bureau of Indian Education (BIE) school system. 
The BIE has developed a Suicide Prevention, Early Intervention and 
Postvention Policy to promote suicide prevention in BIE schools. The 
policy mandates specific actions in all schools, dormitories and the 
two post-secondary institutions; and encourages tribally-operated 
schools to develop similar policies. These actions create a safety net 
for students at risk of suicide and promotes proactive involvement of 
school personnel and communities in intervention, prevention and 
postvention activities. There are also ongoing efforts to address these 
issues through partnerships with behavioral health and social services 
organizations at both the tribal and national level with SAMSHA and the 
Indian Health Service (IHS).
    Within Indian Affairs, the BIA's Law Enforcement and Tribal 
Services programs, along with the BIE, continually seek ways to 
collaborate and to support activities directed at suicide prevention 
and services coordination. The BIE utilizes the Youth Risk Behavior 
Survey, Native American Student Information System (NASIS), local BIA 
Law Enforcement and IHS data to develop interventions and track trends 
for program implementation and is committed to seeking out and enacting 
prevention strategies while ensuring a safe and secure environment for 
our students.
    The Office of Justice Services (OJS) in the BIA has partnered with 
numerous health and social service programs to assist in educating and 
presenting at schools, seminars, workshops and community events to the 
youth and the community on suicide prevention. Corroborated by 
statistics from the Resource Patient Management System (RPMS), BIA Law 
Enforcement has seen a history of high rates of suicide completions in 
the Great Plains Region alone. The statistics show that, in this 
region, there were 24 American Indian suicide completions in 2008, 36 
in 2009, 15 in 2010 and 6 so far in 2011. The majority of these suicide 
completions were for individuals in the age range of 15 to 24. In the 
Great Plains Region, OJS has signed a Memorandum of Understanding (MOU) 
with the ``Circles of Care'' program. The Circles of Care program 
provides youth prevention activities for families, which are held in 
their tribal communities. During these events BIA Law Enforcement 
participates by setting up an educational booth designed to interact 
with families and other service agencies and provide information on 
suicide prevention. The OJS will continue to gather statistical data 
and identify youth suicide trends within Indian Country, as well as 
look for ways to expand suicide prevention training with other 
stakeholders in the future.
    Indian Affairs' most direct action in youth suicide prevention is 
through the BIE. The BIE's Division of Performance and Accountability 
(DPA) has been providing suicide prevention activities through funds 
provided by the U.S. Department of Education's Title IV Part-A Safe and 
Drug-Free Schools and Communities Program (SDFS). Serving in a similar 
capacity as a State educational agency, the BIE is required to use 
these funds to provide technical assistance to the schools to reduce 
drug and alcohol use and violence incidence by two percent, annually. 
The BIE's DPA has provided technical assistance in the development and 
implementation of data driven programs and evidence-based curriculum.
    While the SDFS program has been discontinued, ongoing technical 
assistance and monitoring is provided by regional School Safety 
Specialists to ensure schools are compliant with intervention 
strategies and reporting protocols to further ensure student safety. 
BIE's partnering with other federal agencies, including SAMHSA and IHS 
and ED, has enabled BIE to address the unique needs of students within 
these schools in the areas of behavioral health and suicide prevention 
efforts.
    Additionally, BIE schools and dormitories use NASIS to track and 
identify specific behavior trends to develop interventions to address 
school specific behavior issues. BIE has developed two technical 
assistance training sessions that include both a basic and coaching 
level course. The basic course covers initial program development, 
policy development, best practices, and implementation, and the 
coaching level course focuses on adult wellness issues and youth 
development. The framework of the session is based on Native resiliency 
and cultural practices that support a positive school climate.
    On November 12, 2010, Larry Echo Hawk, Assistant Secretary--Indian 
Affairs, Yvette Roubideaux, Director, Indian Health Service, and Pamela 
Hyde, Administrator, SAMHSA, announced to Tribal Leaders that BIA, IHS 
and SAMHSA would sponsor listening sessions to hear the needs and 
concerns regarding youth suicide in Indian Country. The purpose of the 
listening sessions were to gather Tribal input on how we can best 
support the goals and programs of tribes for preventing suicide in 
Tribal communities. The listening sessions began on November 15, 2010 
in Window Rock, Arizona on the Navajo Nation and concluded on February 
10, 2011 in Arlington, Virginia at the United South Eastern Tribes 
(USET) Annual Conference. Over this four month period, the BIA, IHS and 
SAMHSA met with several Tribes from all of the BIA Regions. We held 
these listening sessions in Indian Country to gain first-hand knowledge 
from the American Indian and Alaska Native communities to see how best 
we can all, as partners, prevent youth suicide; and to identify 
specific needs expressed by tribal community leaders, clinicians, 
practitioners, and youth.
    The information gathered from these listening sessions was used at 
the Action Summit for Suicide Prevention held in Scottsdale, Arizona 
last week from August 1-4. I attended the Action Summit, along with 
other Indian Affairs staff and key leadership in the office of the 
Assistant Secretary for Indian Affairs. The Action Summit was jointly 
sponsored and attended by BIA, BIE, IHS and SAMHSA to discuss what we 
heard during our joint listening sessions with Tribes, their members, 
and especially the tribal youth. One of the goals of the Action Summit 
on Youth Suicide was to develop policy and future action items to 
address youth suicide and prevent youth suicide in Tribal communities.
    In summary, the BIA, BIE, IHS, SAMHSA, other Federal agencies, and 
Indian tribes must continue to work together to address all aspects of 
suicide prevention and response. I want to thank this Committee for its 
continued concern for the wellbeing of Indian children, teens and young 
adults, especially on the subject of suicide prevention. I am happy to 
answer any questions you may have.

    Senator Tester. Thank you, Ed. I always appreciate your 
being here. Thank you very much.
    Last but certainly not least, we will hear from Dr. McKeon, 
of the Substance Abuse and Mental Health Services 
Administration. Dr. McKeon will tell us about his agency's work 
to reduce the two most important risk factors involved with 
youth suicide, and those are mental health and substance abuse. 
So with that, Dr. McKeon, you can go forward. Please begin.

   STATEMENT OF RICHARD T. McKEON, Ph.D., LEAD PUBLIC HEALTH 
 ADVISOR, SUICIDE PREVENTION TEAM, SUBSTANCE ABUSE AND MENTAL 
 HEALTH SERVICES ADMINISTRATION, U.S. DEPARTMENT OF HEALTH AND 
                         HUMAN SERVICES

    Mr. McKeon. Thanks, Senator Tester. Thank you for allowing 
SAMHSA to testify at this important hearing on prevention of 
suicide among American Indian and Alaska Native youth.
    I serve as the lead public health advisor on suicide 
prevention at SAMHSA. I am pleased to testify here, along with 
my colleagues at the Indian Health Service and the Department 
of Interior, as well as the tribal leaders, tribal youth and 
others.
    The problem of suicide in Indian Country is a shared and 
urgent concern. Efforts to reduce suicide and suicide attempts 
among American Indian and Alaska Native youth must be a shared 
effort.
    Today I will share with you some of the efforts SAMHSA is 
undertaking to reduce suicide and suicide attempts in Indian 
Country, both through SAMHSA-led programs as well as work we 
conduct in conjunction with other Federal, State and tribal 
partners. You all know the tragic statistics. In 2007, suicide 
was the second leading cause of death among American Indian and 
Alaska Native youth age 10 to 24, with rates of suicide 
significantly higher than for other ethnic groups.
    According to unpublished Indian Health Service data, 
suicide mortality is 73 percent greater in American Indian and 
Alaska Native populations in IHS service areas compared to the 
general U.S. population. American Indians and Alaska Natives 
have the highest rates of suicide, Senator, at least until the 
age of 40.
    SAMHSA's number one strategic initiative is prevention of 
substance abuse and mental illness. Included in this initiative 
is the prevention of suicide and suicide attempts. The 
prevention of suicide is a public heth issue and necessitates a 
comprehensive public health approach.
    SAMHSA is addressing youth suicide through a range of 
efforts, including the National Action Alliance for Suicide 
Prevention, a new Tribal Behavioral Health formulary grant 
program, grants to tribes through the Garrett Lee Smith 
Memorial Act youth suicide prevention program, implementation 
of the Indian Healthcare Improvement law, the Native 
Aspirations program, technical assistance provided by the 
Suicide Prevention Resource Center, and 24/7 crisis support 
through the National Suicide Prevention Lifeline.
    Also through the recently signed memorandum of agreement 
between HHS, the Department of Justice and Department of 
Interior as required by the Tribal Law and Order Act, and 
inclusion of requests that States engage in tribal consultation 
as part of their plans submitted to SAMHSA in conjunction with 
the new Uniform Mental Health and Substance Abuse Block Grant 
Application.
    You also heard how we spent just last week, over 1,000 
people came together to work together and to learn together at 
the Action Summit for Suicide Prevention that was jointly 
hosted by IHS, Bureau of Indian Affairs, Bureau of Indian 
Education and SAMHSA. The most important thing that the 
research and the efforts showed was the effort to learn from 
each other. No one of us can do this alone. We can't start from 
the beginning, we have to learn from [indiscernible] of what 
has been helpful [indiscernible]. So that was the important 
part of what happened last week.
    Let me also reference National Action Alliance for Suicide 
Prevention, which was launched September 10th, 2010 by the 
United States Department of Health and Human Services, Kathleen 
Sebelius, and former Defense Secretary, Robert Gates. The 
National Action Alliance is a public-private collaborative 
effort to promote suicide prevention in the United States, to 
implement and to update United States national strategy for 
suicide prevention. The private sector co-chair is former U.S. 
Senator Gordon Smith, who tragically lost his own son to 
suicide, and the public sector co-chair is the Secretary of the 
Army, John McHugh. Members of the National Action Alliance 
include but are not limited to SAMHSA Administrator Hyde, 
Department of Interior Assistant Secretary Larry Echo Hawk, 
McClellan Hall from the National Indian Youth Leadership 
Project. In addition, IHS Director Roubideaux serves as ex 
officio member of the Action Alliance.
    You have heard about the task force that was set up as part 
of the National Action Alliance to focus on [indiscernible] 
specific suicide prevention for tribal youth, regarding suicide 
prevention, intervention and postvention strategies, including 
positive youth development.
    The President's fiscal year 2012 budget for SAMHSA proposes 
a new grant program entitled Behavioral Health--Tribal 
Prevention Grant, which is intended to increase SAMHSA's 
efficacy in working with tribes and tribal entities. The 
program will focus on the prevention of alcohol abuse, 
substance abuse, and suicides in the 656 federally-recognized 
tribes. Recognize the Federal obligation to help tribes deal 
with physical and behavioral health issues, SAMHSA will work in 
consultation with tribes and [indiscernible] partners to 
establish a single coordinated mental health and substance 
abuse prevention effort for all federally-recognized tribes. 
SAMHSA will also consult and work closely with tribes and 
tribal leaders to develop a comprehensive, data-driven planning 
process to identify and address the most serious issues in each 
tribal community.
    You have heard about the Garrett lee Smith Memorial grant 
that we have recently received. [indiscernible] 19 tribes and 
tribal organizations receiving multi-year grants to address 
suicide prevention among tribal youth. This year, in the last 
two weeks, 21 additional tribal grants have been made for a 
total of 40 tribal grants [indiscernible].
    Let me just mention the innovative work in the grant that 
we have done here at Fort Peck. That grant has done a number of 
things that includes innovative efforts from a program called 
Sources of Strength. Promising results are coming from 
[indiscernible] as well as efforts and follow-up to address 
people being discharged from emergency departments.
    Thank you for this opportunity to share with you efforts 
SAMHSA is making with respect to our American Indian and Alaska 
Native youth suicide prevention. I will be happy to answer any 
questions you may have.
    [The prepared statement of Mr. McKeon follows:]

  Prepared Statement of Richard T. Mckeon, Ph.D., Lead Public Health 
  Advisor, Suicide Prevention Team, Substance Abuse and Mental Health 
 Services Administration, U.S. Department of Health and Human Services

    Chairman Akaka, Ranking Member Barrasso and Senator Tester, thank 
you for inviting me to testify at this important hearing on the 
prevention of suicide among American Indian/Alaska Native (AI/AN) 
youth. I am Dr. Richard McKeon and I serve as the lead Public Health 
Advisor on suicide prevention at the Substance Abuse and Mental Health 
Services Administration (SAMHSA) within the U.S. Department of Health 
and Human Services (HHS). I am pleased to testify along with my 
colleague at the Indian Health Service (IHS) and tribal leaders, as 
well as AI/AN youth. The problem of suicide in Indian Country is a 
shared concern and efforts to reduce suicide and suicide attempts among 
AI/AN youth must be a shared effort.
    SAMHSA has played an integral role in the nation's efforts to 
reduce suicide in Indian Country and I want to acknowledge the 
tremendous efforts of SAMHSA's Deputy Administrator Eric Broderick who 
has testified before this Committee several times related to suicide 
prevention. Dr. Broderick will be retiring later this month after 38 
years of services in the U.S. Public Health Commissioned Corps. He 
brought his passion, leadership and skill to IHS and SAMHSA and will be 
greatly missed.
    Today, I will share with you some of the efforts SAMHSA is 
undertaking to reduce suicide and suicide attempts in Indian Country 
both through SAMHSA-led programs, as well as work we conduct in 
conjunction with other Federal, State, and tribal partners. As you know 
all too well, the rate of suicide among AI/AN individuals is higher 
than the national average. In 2007, suicide was the second leading 
cause of death for AI/AN youth aged 10-24 with rates of suicide 
significantly higher for AI/AN youth aged 15-24 (20.04 per 100,000) 
than for the national average (11.47 per 100,000) (CDC, 2010.) Injuries 
and violence account for 75 percent of all deaths among Native 
Americans ages 1 to 19 (Wallace, 2000). Overall, according to 
unpublished Indian Health Service (IHS) data, suicide mortality is 73 
percent greater in AI/AN populations in IHS service areas compared to 
the general U.S. population.
    SAMHSA's number one strategic initiative is Prevention of Substance 
Abuse and Mental Illness. Included in this initiative is the prevention 
of suicide and suicide attempts. The prevention of suicide is a public 
health issue and necessitates a public health approach that works at 
the primary, secondary and tertiary levels. In line with SAMHSA's 
Prevention strategic initiative, the Administration is addressing AI/AN 
youth suicide through a range of efforts including: the National Action 
Alliance for Suicide Prevention; a new Tribal Behavioral Health 
formulary grant program; grants to tribes through the Garrett Lee Smith 
Memorial Act (GLSMA) youth suicide prevention program; implementation 
of the Indian Healthcare Improvement law; the Native Aspirations 
program; technical assistance by the Suicide Prevention Resource Center 
(SPRC); 24/7 crisis support through the National Suicide Prevention 
Lifeline; the recently signed Memorandum of Agreement between HHS (with 
SAMHSA as the lead agency), the Department of Justice (DOJ) and the 
Department of the Interior (DOI) as required by the Tribal Law and 
Order Act; and inclusion of requests that states engage in tribal 
consultation as part of their plans submitted in conjunction with the 
new Uniform Mental Health and Substance Abuse Block Grant Application.
    In order to highlight the plethora of activity around efforts to 
prevent suicide and suicide attempts among AI/AN individuals, just last 
week in Scottsdale, Arizona over 1,000 individuals came together for 
The Action Summit for Suicide Prevention hosted by IHS, Bureau of 
Indian Affairs (BIA), Bureau of Indian Education (BIE) and SAMHSA. The 
title of the Summit was ``Partnering with Tribes to Protect the Circle 
of Life,'' and objectives for the event included strengthening tribal, 
Federal, State and community partnerships; creating an opportunity to 
collaborate, network, and share effective strategies on topics in 
suicide and substance abuse prevention in Native American communities; 
and providing the most up-to-date research related to suicide and 
substance abuse in Indian Country.

National Action Alliance for Suicide Prevention
    On September 10, 2010, the National Action Alliance for Suicide 
Prevention (NASSP) was launched by the U.S. Department of Health and 
Human Services Secretary, Kathleen Sebelius, and former Defense 
Secretary, Robert Gates. The NASSP has a private sector Co-Chair, 
former U.S. Senator Gordon Smith (R-OR), and a public sector Co-Chair, 
Army Secretary John McHugh. Members of the NAASP include, but are not 
limited to, the Surgeon General, Regina Benjamin; the SAMHSA 
Administrator, Pamela Hyde; Department of Interior Assistant Secretary 
of Indian Affairs, Larry Echo Hawk; HHS Assistant Secretary for Health, 
Dr. Howard Koh; and National Indian Youth Leadership Project Executive 
Director, McClellan Hall. In addition, the IHS Director, Dr. Yvette 
Roubideaux, serves as an ex officio Member of the NAASP. Mr. Echo Hawk, 
Mr. Hall and Dr. Roubideaux serve as the leaders of the NAASP AI/AN 
Task Force which will establish specific priorities for Tribal youth 
regarding suicide prevention, intervention, and postvention strategies, 
including positive youth development. The Task Force also helped 
develop the agenda and strategy for the National Suicide Prevention 
Summit and will also do so for the Alaska Suicide Prevention Summit for 
AI/AN communities, leaders, service providers, educators, and law 
enforcement.

Behavioral Health--Tribal Prevention Grants
    The President's FY 2012 Budget for SAMHSA proposes a new grant 
program titled Behavioral Health--Tribal Prevention Grant (BH-TPG), 
which is intended to increase SAMHSA's efficacy in working with tribes 
and tribal entities. The BH-TPG represents a significant advance in the 
Nation's approach to substance abuse and suicide prevention, based in a 
recognition of behavioral health as a part of overall health. The 
program will focus on the prevention of alcohol abuse, substance abuse 
and suicides in the 565 Federally-recognized Tribes. Recognizing the 
Federal obligation to help Tribes deal with physical and behavioral 
health issues, SAMHSA will work in consultation with Tribes, 
establishing a single coordinated mental health and substance abuse 
program for all Federally-recognized Tribes. SAMHSA also will consult 
and work closely with Tribes and Tribal leaders to develop a 
comprehensive, data-driven planning process to identify and address the 
most serious behavioral health issues in each Tribal community.
    Tribes will be allowed to use a set percentage (determined after 
consultation with Tribes) of the Behavioral Health--Tribal Prevention 
Grant funds for a combination of service and service-related 
activities, development and dissemination of prevention messages, and 
provider development and linkage building to support the Tribes in 
achieving outcomes. Funding for infrastructure activities will enable 
the Tribe to build service capacity. The Tribe will present data to 
support how the allocation will support infrastructure and/or provision 
of services. In carrying out these activities, the Tribe will be 
required to use comprehensive, evidence-based programming, and/or 
proven successful programming, based on either mainstream science or 
proven Tribal traditions. Up to 20 percent of the grant funds may be 
used to fund key support and development activities, such as operation 
of a Tribal prevention advisory group, support for a Tribal community 
coalition, access to an epidemiological work group, training and 
technical assistance to communities, data collection and evaluation, 
and oversight and monitoring of activities. The details of the funds 
distribution will be determined in consultation with Tribes.

Garrett Lee Smith Grants
    Since passage of the GLSMA (P.L. 108-355) in 2004, 19 tribes have 
received multi-years grants to address suicide prevention among tribal 
youth, with 21 additional tribal grants to start this year. This number 
represents 39 percent of the total State and Tribal Youth Suicide 
Prevention Grants authorized by the GLSMA. These grants have provided 
the tribes funding to help implement a tribe-wide suicide prevention 
network. The first tribal grantee was the Native American 
Rehabilitation Association in Oregon, which was one of three GLSMA 
grantees in the first cohort to be awarded additional evaluation 
funding. They will use the funding to enhance their evaluations to 
maximize what could be learned from their important suicide prevention 
activities.
    One of the Nation's most innovative systems for intervening with 
youth at risk for suicide, the White Mountain Apache's suicide 
prevention program (funded by SAMHSA through the GLSMA grant program), 
includes the evaluation of two culturally adapted interventions that 
target youth who have attempted suicide. These interventions are linked 
to a unique tribally mandated suicide surveillance system that 
identifies youth who have exhibited suicidal behavior. The 
interventions focus on in-home follow-up with youth who have attempted 
or thought of attempting suicide and were treated and discharged from 
emergency departments. The first intervention, New Hope, is an 
emergency department-linked intervention conducted over one to two 
sessions. The sessions comprise of a locally produced video and 
workbook curriculum that develops a safety plan for the youth and 
problem-solves barriers to their engagement in treatment. The second 
intervention, Re-Embracing Life, was adapted from the American Indian 
Life Skills Development Curriculum and consists of nine curricular 
sessions conducted weekly in home or office settings. The intervention 
targets problem solving, anger/conflict management, self-
destructiveness, emotional regulation, coping, social interactions, and 
help-seeking behaviors.
    In the most recent cohort of GLSMA grantees which were announced 
over the last 2 weeks, I am pleased to note that SAMHSA provided 
funding for the ``Sister National Empowerment Partnership'' which will 
be administered by the Fort Peck Tribal Health Service and the 
University of Montana. This grant of $480,000 per year for 3 years will 
be utilized to design and deploy a comprehensive system of youth 
suicide prevention on the Fort Peck Reservation in northeast Montana. 
The partnership will build on existing work in response to a 
devastating suicide cluster in 2010. Particular attention will be given 
to needs identified in a deployment report by the U.S. Public Health 
Service in response to a state of emergency declared by the Fort Peck 
Tribes in May 2010. During the period identified in the report, the 
suicide completion rate on the reservation was three times the Montana 
average and more than six times the rates for the nation as a whole. 
The goals of the grant include increasing the number of primary health 
care and mental health providers trained to assess, manage, and treat 
youth at risk for suicide; increase the number of youth, school staff, 
parents and community members trained to identify and refer for care a 
youth at risk for suicide; to increase the number of youth receiving 
mental health and substance abuse services by improving access to care; 
and to promote the National Suicide Prevention Lifeline in all 
activities.
    In addition, the Confederated Salish & Kootenai Tribes in Pablo, 
Montana also received a GLSMA grant in Fiscal Year (FY) 2011. Finally, 
I would like to note that this year funds from the Prevention and 
Public Health Trust Fund established by the Affordable Care Act (ACA) 
will be utilized to enhance SAMHSA's youth suicide prevention efforts 
and all four of these $1.44 million grants have been awarded to tribes 
or tribal entities.

Implementation of the Indian Youth Suicide Prevention Provisions of 
        Indian Health Care Improvement Reauthorization and Extension 
        Act of 2009
    On March 23, 2010, as part of the ACA, President Obama also signed 
into law the Indian Health Care Improvement Reauthorization and 
Extension Act of 2009. Title VII, Subtitle B includes provisions 
related to Indian Youth Suicide Prevention. SAMHSA is dedicated to 
undertaking measures to improve the process by which Indian tribes and 
tribal organizations apply for grants. One such example is that SAMHSA 
does not require tribal entities applying for agency electronically.
    In the FY 2011 cohort of GLSMA State/Tribal grantees, 21 of 37, or 
57 percent, grantees are tribes, tribal organizations, or entities that 
have indicated the grant will be used specifically for AI/AN youth 
suicide prevention activities. SAMHSA has made significant efforts to 
take into consideration the needs of Indian tribes or tribal 
organizations. Furthermore, SAMHSA does not require any Indian tribe or 
tribal organization to apply through a State or State agency for any of 
the agency's grant programs.

Native Aspirations Program
    SAMHSA has funded 49 tribal communities through Native Aspirations 
(NA), a national project designed to address youth violence, bullying, 
and suicide prevention through evidence-based interventions and 
community efforts. NA is unique among SAMHSA suicide prevention 
programs in that it is based on the concepts and values that reflect 
the AI/AN community: that solutions to AI/AN youth violence, bullying, 
and suicide must come from and be embraced by the community; leadership 
must be involved and invested in the solution; it is up to the 
community to determine the approaches that would be most effective for 
them; traditional approaches that are used in non-AI/AN communities in 
America don't always work in AI/AN communities; and that the community 
Elders are crucial to the success of the project.
    To date, nearly 200,000 Tribal members in 20 communities and 2,100 
Alaska Natives in five villages have been provided specialized 
technical assistance and support in suicide prevention and related 
topic areas for these communities. In addition, over 750 community 
members were trained in prevention and mental health promotion in these 
communities.

Suicide Prevention Resource Center
    SAMHSA funds the Suicide Prevention Resource Center (SPRC), which 
provides prevention support, training, and resources to assist 
organizations and individuals to develop suicide prevention programs, 
interventions and policies, and to advance the National Strategy for 
Suicide Prevention. SPRC supports the technical assistance and 
information needs of SAMHSA State/Tribal Youth Suicide Prevention and 
Campus Suicide Prevention grantees and State, Territorial, and Tribal 
(STT) suicide prevention coordinators and coalition members with 
customized assistance and technical resources. SPRC has two senior 
tribal prevention specialists available to provide technical assistance 
to those seeking information, evidence-based programs and awareness 
tools specifically geared for suicide prevention among AI/AN 
individual. Included on SPRC's Web page dedicated to AI/AN suicide 
prevention is a SAMHSA funded guide titled, ``To Live To See the Great 
Day That Dawns: Preventing Suicide by American Indian and Alaska Native 
Youth and Young Adults.''

National Suicide Prevention Lifeline
    The National Suicide Prevention Lifeline (Lifeline) 1-800-273-TALK 
(8255) is a 24-hour, toll-free, confidential suicide prevention hotline 
available to anyone in suicidal crisis or emotional distress. By 
dialing 1-800-273-TALK, the call is routed to the nearest crisis center 
in our national network of more than 150 crisis centers. The Lifeline's 
national network of local crisis centers, provide crisis counseling and 
mental health referrals day and night.
    The Lifeline has a Native American Initiative that includes 
objectives such as:

        1.  Establishing and maintaining working relationships between 
        crisis center staff and key stakeholders in tribal communities.

        2.  Developing and delivering cultural awareness and 
        sensitivity trainings as per the direction of the designated 
        tribal community for crisis center telephone workers.

        3.  Strengthening the effectiveness of the local Reservation 
        referrals for suicide prevention supports by identifying 
        relevant, available resources in the tribal community.

        4.  Promoting culturally sensitive social media and educational 
        materials in tribal communities, as determined by tribal 
        stakeholders.

        5.  Identifying similarities and differences that can inform 
        serving Native American communities on a national level in a 
        culturally and respectful manner.

    In Montana, the Fort Peck, Blackfeet, Northern Cheyenne, Crow, Fort 
Belknap, Flathead and Rocky Boy reservations are served by Lifeline's 
Voices of Hope crisis call center.

Tribal Law and Order Act
    As you are aware, through the Tribal Law and Order Act of 2010 
Congress sought to engage new federal partners to build upon previous 
efforts in addressing alcohol and substance abuse in Indian country. As 
a result, the Secretary of Health and Human Services, the Secretary of 
the Interior, and the Attorney General, recently signed a Memorandum of 
Agreement (MOA) to, among other things:

        1.  Determine the scope of the alcohol and substance abuse 
        problems faced by American Indians and Alaska Natives;

        2.  Identify the resources and programs of each agency that 
        would be relevant to a coordinated effort to combat alcohol and 
        substance abuse among American Indians and Alaska Natives; and

        3.  Coordinate existing agency programs with those established 
        under the Act.

    The MOA specifically takes into consideration that suicide may be 
an outcome of, and has a connection to, substance abuse. To accomplish 
the above stated goals, SAMHSA sought to establish an Interdepartmental 
Coordinating Committee (Indian Alcohol and Substance Abuse Committee) 
to include key agency representation from SAMHSA, IHS, Office of 
Justice Programs, Office of Tribal Justice, BIA, BIE, and the 
Department of Education. The Administration on Aging and Administration 
for Children and Families within HHS are also represented on the IASA 
Committee. The IASA Committee has created an organizational structure 
to include workgroups to carry out its work.

Uniform Block Grant Application
    On July 26, SAMHSA announced a new application process for its 
major block grant programs the Substance Abuse Prevention and Treatment 
Block Grant and the Community Mental Health Services Block Grant 
(MHBG). The change is designed to provide states greater flexibility to 
allocate resources for substance abuse and mental illness prevention, 
treatment and recovery services in their communities. One of the key 
changes to the block grant application is the expectation that States 
will provide a description of their tribal consultation activities. 
Specifically, the new application's planning sections note that States 
with Federally-recognized tribal governments or tribal lands within 
their borders will be expected to show evidence of tribal consultation 
as part of their Block Grant planning processes. However, tribal 
governments shall not be required to waive sovereign immunity as a 
condition of receiving Block Grant funds or services.
    Included within the MHBG application SAMHSA notes that States 
should identify strategies for the MHBG that reflect the priorities 
identified from the needs assessment process. Goals that are focused on 
emotional health and the prevention of mental illnesses should be 
consistent with the National Academies--Institute of Medicine report on 
``Preventing Mental, Emotional, and Behavioral Disorders Among Young 
People: Progress and Possibilities.'' More specifically, they also 
should include Strategies that implement suicide prevention activities 
to identify youth at risk of suicide and improve the effectiveness of 
services and support available to them, including educating frontline 
workers in emergency, health and other social services settings about 
mental health and suicide prevention. Finally, the uniform application 
requests that States attach to the Block Grant application the most 
recent copy of the State's suicide prevention plan. It notes that if 
the State does not have a suicide prevention plan or if it has not been 
updated in the past 3 years, the State should describe when it will 
create or update its plan.

Conclusion
    Thank you again for this opportunity to share with you the 
extensive efforts SAMHSA is undertaking with respect to AI/AN youth 
suicide prevention specifically, as well as other efforts relating to 
tribal behavioral health issues. I would be pleased to answer any 
questions that you may have.

    Senator Tester. Thank you, Dr. McKeon. You can hand the mic 
down to Rose. In the meantime, I want to thank you for your 
testimony. As with everybody who testified today, your entire 
testimony will go into the official record. So thank you very 
much.
    Rose, past Indian Affairs Committee hearings have revealed 
that tribal communities are sometimes unwilling to talk about 
suicide, especially youth suicide. Has that been in your 
experience, and if it has, is it better to talk about it or is 
it better to keep quiet?
    Ms. Weahkee. Yes, that has been brought up, and even just 
this past week at the Action Summit for Suicide Prevention, 
that was addressed as one of the issues from tribal communities 
speaking at the Summitt. So it is important for us to work 
jointly with the tribe elders and traditional practitioners in 
the community to help us address the issue of suicide.
    But it is important and something that we have been hearing 
from tribal communities is that there needs to be more 
communication and more awareness to all systems throughout the 
tribal health system, through the education system, law 
enforcement, first responders, to parents and grandparents, and 
to peers. So if someone does come to them with thoughts of 
suicide, that they know what to do to respond to that issue.
    Senator Tester. Okay. Does talking about it or not talking 
about it affect suicide clusters, and if so, how?
    Ms. Weahkee. I think that is one of the myths, that talking 
about suicide will increase the number of suicides. It is 
important for us to bring education and awareness and be able 
to learn how we can respond when someone is coming to us, maybe 
expressing that they want to harm themselves. That is a skill 
that we are trying to develop and awareness we are trying to 
bring with the suicide summit that was held last week, and the 
one that we will be holding in Alaska next month, to bring more 
awareness about how to deal with that.
    Senator Tester. Are you familiar with a program the 
Montana-Wyoming Tribal Leadership Council is doing called 
Planting Seeds of Hope?
    Ms. Weahkee. Yes, absolutely.
    Senator Tester. One of their goals is to train gatekeepers 
in every community. Can you tell me what a gatekeeper is and 
why it is important?
    Ms. Weahkee. A gatekeeper is and can be anyone in the 
community. It can be a peer, it can be a teacher, it can be a 
parent, someone that that young person or that youth may come 
in contact with that could be trained about how to listen and 
know what to do, understand what the risk factors are, 
understand what suicide is and basically how to intervene. So 
we have a lot of gatekeeper training programs that are out 
there, and a lot that we shared last week. And they need to be 
developed and they need to be trained. Native HOPE is one of 
those gatekeeper programs that many of our tribal communities 
are implementing. So the short answer is yes it is important.
    Senator Tester. So those would be people that a student or 
an adult could go talk to if they are having some issues, being 
bullied or whatever?
    Ms. Weahkee. Yes, absolutely. But I also want to stress the 
point, I think one of the things that we heard from our youth, 
our youth panel last week, is that we need to listen and that 
we need to reach out more as adults. A lot of our youth are 
afraid, I think we heard that here today.
    Senator Tester. We sure did.
    Ms. Weahkee. Sometimes it is scary for a youth to come to 
an adult and explain when something like that is happening, for 
whatever reason. So it is very important for us as adults to go 
to our youth and listen to them.
    Senator Tester. Okay. Thank you, Rose.
    Ed, we passed Tribal Law and Order Act last Congress. It 
was, I think, a pretty good piece of legislation. I want to 
know from your perspective, it was supposed to reduce violence 
in Indian Country. Have we been into the program long enough 
where we can say it has worked or it hasn't worked or do we 
need more time?
    Mr. Parisian. I am trying to think about how to answer 
this, because I am not the expert when it comes to law 
enforcement. But I am familiar with the program, and the 
meetings that we have attended. I know that they are in the 
planning process. I am not sure if it is made that big a 
difference yet. I think that it is going to need some time, 
particularly training, education, more involvement from the 
tribal side, so that it would work. But the program, I do 
believe, will make a difference.
    Senator Tester. Good.
    Dr. McKeon, you talked about suicide prevention grant 
programs. Whenever grant programs are brought up, from my 
perspective, I am always wondering if they are skewed against 
rural communities. I would say for, but typically they are 
skewed against them. So I guess specifically, with the programs 
you referenced, specifically to Indian Country, how can we be 
assured that the playing field is level as it supplies to 
access to those grant dollars for frontier Indian communities?
    Mr. McKeon. That's a very important point. SAMHSA has 
worked hard to try to maximize the availability of these grants 
to tribal communities. Currently with the new awards that were 
just made, 40 percent of the grants that have been awarded 
through the State and tribal component of the Garrett Lee Smith 
Memorial Act have gone to tribes and to tribal organizations.
    We have tried to do a couple of things to try to help 
tribes be competitive in that process. One is our Native 
Aspirations program, which looks at risk factors for violence, 
bullying and suicide and how to [indiscernible] focus on the 
planning effort. Nine of our Native Aspirations communities 
have gone on afterwards to successfully compete for Garrett Lee 
Smith Memorial grants.
    Also, we make sure to have specific technical system 
session when the requests for applications or grants are 
[indiscernible] for tribal communities and to make sure that 
there are no barriers around things like electronic access, 
which could disadvantage tribal communities in some places.
    Senator Tester. Okay. Thank you.
    We are pressed for time, because we are over by about 20 
minutes already. This is an important issue. I want to thank 
all of you for your testimony and your commitment, as well as 
the previous panel, to the issue.
    As I have said to the tribal council earlier today, this is 
about, all these hearings, whether they are in Washington, D.C. 
or whether they are in Poplar, is about gathering information 
and utilizing information to make a difference. We heard some 
pretty moving testimony here today from people who have been 
directly impacted by horrific events, quite honestly. And we 
also heard some good testimony from folks up here about what 
works, and maybe what doesn't work, and some of the issues that 
we need to address, whether it is bullying, or it is working 
together in partnership, getting everybody on the same page or 
whatever it might be, moving forward.
    We have those on record and we can utilize them and staff 
will be moving over those and hopefully we will be able to come 
up with some things in Washington, D.C. that is not going to 
solve the problem but will help solve the problem. Because I do 
believe, as many people have testified today, communities play 
such an incredibly important role with their buy-in. It is 
absolutely critically important.
    I want to thank the folks here at Poplar High School for 
the use of the venue. Very, very nice. I want to thank Chairman 
Stafne for not only his testimony but for his hospitality. I 
want to thank all the participants who participated today.
    I want to thank all of you for coming to this hearing. You 
need to know that the hearing record will remain open for two 
weeks. And this doesn't apply just to the folks who are here, 
this applies to all of you and your neighbors. The hearing 
record will be open for two weeks. If you would like to 
contribute your comments, the easiest way to do it is to get on 
the internet, providing you have access to it, 
indianaffairs.gov, and we can take your input to the testimony 
at this hearing, you can add to the testimony if you so choose. 
It is one of those things. Technology can help make a 
difference.
    I want to thank you all for being here once again. I very, 
very much appreciate the participation, very, very much 
appreciate the heartfelt testimony. And with that, this Indian 
Affairs Committee meeting is adjourned.
    [Whereupon, at 3:00 p.m., the hearing was adjourned.]

                            A P P E N D I X

Prepared Statement of Annie Belcourt-Dittloff, Ph.D., Missoula, Montana
    Honorable Senator Tester and Committee Members,

    Suicide is clearly one of the most significant problems facing 
Native American communities in Montana. I would first like to take this 
opportunity to thank Senator Tester for the work he has done to address 
this problem. Native Americans in Montana are nearly twice as likely to 
take their own lives (21.4 per 100,000-Native Americans in Montana 
versus 11.0 per 100,000-U.S. rate). This rate is even higher in 
specific Native reservations in our state. This is unacceptable. We 
must all join together to improve the health and hope of our native 
communities and youth. As we have seen, the youth are the population 
most at risk. However, as we all appreciate our children and youth are 
our most important resource and hope for healthier communities in the 
future.
    Reducing the problem of suicide among our Native American 
communities in Montana will require collaborative efforts aimed at 
improving our collective understanding of the problems associated with 
suicide and potential solutions. I have multiple connections to the 
tribal communities and I am personally committed to improving the 
overall health of Native American communities. I was trained as a 
clinical psychologist and completed my doctorate at the University of 
Montana in 2006. I went on to complete an internship year at the Denver 
Veterans Affairs Medical Center and a 4-year postdoctoral faculty 
position at the Centers for American Indian and Alaska Native Health 
concentrating on posttraumatic stress and mental health disparities 
(suicide, trauma, PTSD, depression, and cultural factors) in Native 
American populations. My research and clinical practice experiences 
have focused upon mental health disparities, trauma, depression, 
anxiety, posttraumatic stress reactions and disorders, risk factors, 
and resiliency.
    I write to you today from both a professional and a personal 
perspective. As a researcher and faculty member in the state of 
Montana, I am interested in advancing knowledge, science, and practice 
to improve health disparities facing American Indians. I know the vital 
importance of science, intervention, and community collaboration in 
this process. My comments reflect my beliefs that we must all invest in 
quality collaborative intervention, prevention, science, education, and 
health care practice within our Native communities. My comments reflect 
these beliefs and commitment towards working to address the problem of 
suicide. While some Montana reservation communities have received a lot 
of recent media attention, it is important to note that the problem of 
youth suicide has been impacting every Native American community in 
Montana. As such, it is important that each community receive access to 
scientific, clinical, educational, and prevention opportunities.
    In addition to my role as a researcher and clinician, I also write 
today as a family member of a Native youth lost to suicide. This is a 
devastating loss for our family and I can tell you that I personally 
would have done anything to prevent this loss from happening. My nephew 
fell through the cracks that have become all too evident within our 
reservation health care and educational systems. I cannot bring him 
back, but I can work to honor his brief life through the work that I do 
advocating for science, practice, education, and policy efforts aimed 
at preventing suicide. I feel that it is important to advance our 
knowledge regarding the impact of trauma and poverty within our Native 
American communities. I also feel that it is important to invest in 
prevention efforts that promote resiliency, sobriety, education, 
physical health, and improved access to mental health care within our 
Native communities. We can all do more to work to prevent any other 
families from experiencing the loss of family members to suicide.
    Federal agencies, Tribal leaders, community members, healthcare 
providers, researchers, elders, youth, and academic partners need to 
work toward improving the health and hopes of our Native youth. The 
growing crisis of suicide facing our Native communities in Montana and 
the nation demands that we all take a stand and work to prevent any 
more losses.
    I include below responses to recent questions posed in a regional 
suicide prevention listening session held in conjunction with key 
federal agencies. The responses were created in collaboration with the 
Montana-Wyoming Tribal Leaders Council. I hope that the responses help 
to generate potential ideas for how to improve our collective response 
to suicide within Montana's Native communities. It is with great hope 
that I look to your leadership to provide us with innovative solutions 
to the problem of suicide within our Native communities.
    Please let me know how I can help in these efforts.

    Question 1. What can federal agencies do together to help 
communities reduce suicide and suicide-related problems in Indian 
country?
    Answer. Policy and legislation needs to prioritize suicide 
prevention, risk identification, referral, mental health access, 
education, inter and intra agency collaboration, and funding for Native 
communities. Mental health needs to be funded more adequately for both 
reservation and urban communities to target Native youth who are most 
at risk. Funding needs to directly address the needs of those most at 
risk: Native youth, rural reservation populations, and those 
experiencing mental health problems are primary examples of vulnerable 
populations. Primary high risk is associated with Native American males 
who have a history of substance abuse, physical or sexual abuse, 
incarceration, relationship problems, and academic problems. Working 
with educators, mental health professionals, and academic partners to 
advance early detection and prevention efforts is one example of 
innovative work that needs to occur. These efforts need to occur at 
both the community and individual level. Mental health problems are 
compounded by the rural nature of reservations and the stigma that can 
be attached to mental disorders. As a result, prevention and 
intervention efforts need to focus on reducing barriers to accessing 
mental healthcare including improving access options, improving 
confidentiality, improving available mental health services, improving 
community mental health services, improving public health information 
availability and access, and reducing stigma. In addition, substance 
use is frequently a proximal antecedent to suicide; consequently, 
treatment options need to be improved for all Native youth and 
community members. In most completed suicides, hopelessness paired with 
alcohol and drug use is the most frequently identified risk factor for 
self-harm and suicide completion. We must work to increase both 
individual and community protective factors (self-esteem, social 
support, cultural factors and beliefs, traditional medicine and 
traditional healer access, mentorship, sobriety, and familial support). 
We must also work to decrease poverty, discrimination, trauma, 
substance abuse, and crime. What has been done toward addressing these 
issues in the past has not been sufficient.
    Funding to increase protective and resiliency factors and 
simultaneously decrease risk factors should be prioritized. Information 
should be shared between federal agencies, health care agencies, 
communities, Tribes, and Native researchers to work to address risk and 
protective factors for Native Americans in Montana. The Rocky Mountain 
Tribal Epicenter and collaborative efforts should be supported as a 
continued part of Tribal data and information technological resources. 
Indian Health Services must provide surveillance data to the Rocky 
Mountain Tribal Epicenter and individual tribes. We are all accountable 
for the health and well-being of Native youth and children. We must all 
work toward reducing the stress and trauma that our most vulnerable 
Native Americans face and this will require collaboration and 
perseverance.

  <bullet> Legislation that would allow school systems to acquire and 
        provide or refer children who exhibit bullying behaviors or 
        signs of maltreatment (peer or familial) to therapy rather than 
        punishment or expulsion. Provide incentives to schools for 
        implementing programs that institute healthy relationship 
        building, character development and values clarification in a 
        systematic way.

  <bullet> Funding that would support such an alternative program and 
        supplement regular educational structures including summer 
        camps, after school or weekend activities that are designed to 
        increase character and social skill development.)

  <bullet> Educated Leadership--mandatory training and education on 
        best practices (for health promotion and disease prevention) as 
        well as how to talk and how not to talk about the issue at hand 
        as well as the underlying causes or feelings.

  <bullet> Contagion risk-Media in Montana require training in 
        available guidelines available from the American Psychological 
        Association to avoid or mitigate potential risk associated with 
        sensationalized media depictions of suicide in Montana.

  <bullet> Information technology- could provide telemedicine and 
        telepsychiatry options as well as instruction and education to 
        tribal communities. Building the clinical and educational 
        capacity of tribal communities would reduce the isolation 
        confronting many tribal communities, educators, and health 
        providers. We must establish ways to develop community support 
        and technological access to our most rural reservations. Youth 
        need access to information and options about healthy living 
        options and educational opportunities.

  <bullet> Cross-agency coordination and collaboration--must come from 
        the top down as well as from communities. Schools and Tribal 
        colleges and health professionals as well as Tribal leaders or 
        health committees need paid on-the-job time to ensure 
        information sharing and collaborative initiatives.

  <bullet> Data sharing--The reporting system is inadequate and the 
        problem of agency ``silos'' only exacerbates the problem. The 
        relationship between state, federal, and tribal entities needs 
        to be improved in an equitable manner that does not serve as a 
        detriment of the Tribes. Currently, the Indian Health Service 
        does not have a data sharing agreement with the Rocky Mountain 
        Tribal Epicenter. This limits surveillance data available to 
        tribal communities in Montana.

  <bullet> Accountability--If this does not become everyone's issue, 
        then it will continue to belong only to those who are already 
        isolated and most at risk. If we are going to be genuinely 
        accountable to each other we each must hold ourselves 
        accountable for finding effective remedies for this horrific 
        situation.

    Question 2. What is the best way for federal agencies to coordinate 
suicide prevention activities with tribal groups? For example, in what 
ways can we assist in addressing the problem (i.e., prevention, 
response, mitigation, and recovery)?
    Answer. The best way to coordinate suicide prevention activities 
with tribal groups is to work with all key stakeholders within diverse 
aspects of tribal communities and leadership. This collaborative 
process must be directed to identify best practices for prevention, 
response, mitigation, and recovery. Tribal leaders, mental health 
providers, educators, researchers, administrators, community members, 
tribal youth, and academic partners are examples of key groups that 
require representation at the Billings area level. Federal agencies 
should consider creating positions (ideally led by Native personnel 
with expertise in mental health) specifically devoted to suicide 
prevention, response, and recovery. However, these individuals would 
need to be very active in coordinating the response of all stakeholders 
not just one component of the tribal community. A note of caution: the 
last thing we need is to have this position bogged down by excessive 
bureaucratic barriers. The immediacy of the problem should guide the 
immediacy of our collaborative response. Federal funding agencies need 
to make solid commitments and be required to expedite and support the 
suicide prevention efforts at an agency level. The problem is occurring 
now and the solution must therefore occur now. Every day that passes 
signifies the loss of more members of our Native communities. Tribal 
communities have recommended the use of immediate crisis response teams 
comprised of mental health providers and trained community members (who 
are well supported to prevent burn-out and just being overwhelmed). 
Other ideas include establishing safe houses for youth; improving 
access to crisis mental health services including daily walk-in hours 
for those in crisis; law enforcement training in mental health 
identification and referral; training for educational providers 
(teachers, principals, coaches, and aids); and improving after-school 
and alternative activities for youth (skateparks, basketball open gyms, 
extra-curricular events, and healthy options for activities). These 
activities should also have available information about healthy coping 
and available help for those who may be in crisis.

    Question 3. What are some ways that we can improve communities' 
understanding of suicide as a ``public health issue?''
    Answer. Work with educational systems on each reservation or urban 
center to work to educate teachers, families, students, and communities 
about the public health aspects of suicide and ways to cope with 
stress, trauma, and loss. Grants that work to promote public health 
education would be a good idea to develop collaboratively with 
communities. Involving communities and youth in these efforts is 
critical. Engaging communities in empowering and creative ways is 
critical to ensure the success of these efforts. More focus needs to be 
placed upon what it means to be a healthy and successful member of 
Native communities. Traditional culture, beliefs, and practices are all 
positive aspects that can promote resiliency and healthy coping. Too 
often, we fall victim to petty jealousy and or political pressures and 
end up focusing on negative aspects of communities or individuals. We 
must all work to promote resiliency, protective factors, and mental 
health within our youth and communities. Native spirituality, 
traditional medicine, and cultural practices are important factors that 
could be incorporated into any public health initiatives.

    Question 4. Are there ways technology could be used to address gaps 
in services or community education?
    Answer. Telehealth and telemedicine should be explored, 
particularly for our rural communities in Montana. Many of our most 
rural and remote reservation communities appear to experience more risk 
for suicide. Any innovative ways to establish support for individuals, 
communities, and providers in rural settings would be helpful. We also 
need to create a sense of community and systematically cultivate the 
perspective that life can improve for our Native youth. We need a 
nationwide ``It gets better'' effort analogous to the efforts being 
made for the LGBT youth in this country. Identifying health Native 
American role models could help improve community pride and hope for 
youth. Feelings of sadness and hopelessness can happen to anyone, we 
have to work to create a sense of hope for youth in particular. We also 
need to look at creating healthy opportunities to develop community for 
our isolated and rural reservations. One idea is to create an online 
community that has access to mental health educational material and 
health mentors. Hobbies, creative arts, music, theater, games, 
astronomy, learning about taxonomies are just a few of the activities 
that are virtually unavailable on the reservations, this is prime 
example of how Poverty can stifle imagination and consume all one's 
energy or interest. Poverty is too often the direct result of a lack of 
employment opportunities, hiring youth to come up with safe activities 
might spark imagination.

    Question 5. In what ways can federal agencies better support and 
help sustain local programs? Specifically, what technical assistance 
and program evaluation support is needed to illustrate program success 
and extend successful programs? How is success measured?
    Answer. Programs that do not adequately involve communities, 
families, and youth do not have sustainability. In addition, adequate 
funding for long-term programs and to support key personnel is 
required. Short-term grant funded programs that do not include a 
meaningful community collaboration do not have good chances of 
continued success. In addition, Native Mental Health providers, 
physicians, and educators need to be increased. Native youth need to 
have healthy and successful role models within their communities. 
Success can be measured quantitatively and qualitatively. Including 
communities and Native professionals in the evaluation and technical 
assistance aspects of programming is vital.

    Question 6. How can the various disciplines work collaboratively to 
address suicide within your communities?

  <bullet> Healthcare
  <bullet> Law enforcement
  <bullet> Tribal governments
  <bullet> Federal government
  <bullet> State governments
  <bullet> County systems
  <bullet> First responders
  <bullet> School personnel (BIE and Public Schools)
  <bullet> Families and communities

    Answer. All can and should work collaboratively to prevent youth 
suicide and improve our collective response to those at risk. The 
problems identified associated with suicide risk are complex and 
involve each of the identified disciplines. Improving knowledge of risk 
factors and available mental health options can help to integrate 
education, health, and familial resources to improve early 
identification and treatment for Native Youth at risk.

    Question 7. What are some of the specific challenges to addressing 
suicide in your region?
    Answer. Montana is a very rural and isolated state. It also has 
very limited options for mental health care access. The poverty faced 
by our Native communities can be quite extreme. Unemployment and 
poverty are severe in many reservations and these factors increase the 
risk experienced by all members of Native communities. Substance use 
problems, trauma exposure, inadequate healthcare access, and extremely 
limited access to mental healthcare are all additional barriers to 
Native Americans in Montana. Treatment programs should be expanded and 
professional interventions for all behavioral health issues (including 
obesity). These efforts require additional resources. Educational 
disparities in Montana are significant and translate to increased area 
of risk. Drop-out rates are very high among Native Youth and very few 
make it through college. These factors all need to be improved to 
promote suicide prevention here in Montana.

    Question 8. What are some of the community strategies that have 
worked to prevent suicide?
    Answer. In the past, I have observed that there have been stronger 
links between healthy older mentors in the community and youth. 
Ceremony, language, familial support, peer support, sports, 
extracurricular activities, and access to community-wide event access 
(pow-wows, sobriety events, open supervised gyms, cultural educational 
events/activities, rodeo, skate parks, and other events aimed at youth) 
have been helpful in prevention. Poverty on many reservations limits 
access to the opportunities and these could be helpful areas to invest 
in for the future.

    Question 8a. What can we learn from tribes that have been 
implementing successful prevention and intervention models?
    Answer. Planting the Seeds of Hope and the Montana Suicide 
prevention initiative have exemplified important programs working 
within tribal communities, but they are relatively short term grant 
funded initiatives that will disappear when the grant period ends and 
they are not funded to be comprehensive prevention programs. Engaging 
communities, individuals, and leadership have all marked successful 
efforts. Collaborative efforts between key agencies, scientists, and 
healthcare providers demonstrate promise of improving suicide 
prevention in this state.

    Question 9. How can federal agencies work collaboratively to 
promote youth success, wellness, and resilience (i.e., bullying 
prevention)?

  <bullet> What makes certain youth resilient and some youth high risk?
    Answer. I grew up on the Blackfeet reservation and went on to 
obtain a doctorate from the University of Montana. I can tell you that 
when I was a youth I was probably considered high risk (as was the 
majority of our high school population), but I was able to build upon 
the resiliency factors within my life to create a good life for me and 
for my children. The primary factors that helped me succeed were family 
support, social and community support, having stable and healthy 
parents, traditional cultural beliefs and spirituality, and access to 
educational opportunities and academic scholarships. My family and 
children have been my primary protective factor. I think that efforts 
to support building a safe and supportive environment for our children 
to learn within-- such as bullying prevention and mentorship programs 
can help to improve resiliency. Matching healthy mentors with youth can 
be a powerful force to promote health and suicide prevention. We need 
to develop a system to identify those most at risk to connect them with 
the mental health services they may need. Cultivating connections is a 
key component of this process. I feel strongly that the solutions to 
our problems reside within our communities, but we must be creative and 
persistent in our quest to develop healthier communities.

    Question 10. What steps need to be taken to develop a comprehensive 
strategy that addresses suicide in your community?
    Answer:

  <bullet> Identify Key stakeholders (community, leadership, youth, 
        mental health providers, academic partners, Native providers, 
        and federal agency representatives)

  <bullet> Build strategic plans and implementation timelines

  <bullet> Create early identification, screening, and referral 
        programs on each reservation

  <bullet> Increase mental health access and educational opportunities 
        for youth

  <bullet> Increase Native healthcare providers and partnerships 
        between tribal colleges, high schools, and Universities

  <bullet> Increase Native researchers working to promote suicide 
        prevention

  <bullet> Funding for Native youth suicide prevention programs

  <bullet> Creation of support networks for those at elevated risk
                                 ______
                                 
   Joint prepared Statement of Marilyn Bruguier Zimmerman, Director, 
   National Native Children's Trauma Center and Richard van den Pol, 
Director, Institute for Educational Research and Service, University of 
                                Montana

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
